Audit Report




OIG-09-015
Audit of the United States Mint’s Fiscal Years 2008 and
2007 Financial Statements


December 8, 2008




Office of
Inspector General
Department of the Treasury
                                      DEPARTMENT OF THE TREASURY
                                            W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                             December 8, 2008


            MEMORANDUM FOR EDMUND C. MOY, DIRECTOR
                           UNITED STATES MINT

            FROM:                  Michael Fitzgerald /s/
                                   Director, Financial Audits

            SUBJECT:               Audit of the United States Mint’s Fiscal Years 2008 and
                                   2007 Financial Statements


            I am pleased to transmit the attached audited United States Mint (Mint) financial
            statements for fiscal years 2008 and 2007. Under a contract monitored by the
            Office of Inspector General, KPMG LLP, an independent certified public accounting
            firm, performed an audit of the financial statements of the Mint as of
            September 30, 2008 and 2007 and for the years then ended. The contract
            required that the audit be performed in accordance with generally accepted
            government auditing standards; applicable provisions of Office of Management and
            Budget Bulletin No. 07-04, Audit Requirements for Federal Financial Statements;
            and the GAO/PCIE Financial Audit Manual.

            The following reports, prepared by KPMG LLP, are incorporated in the attachment:

                •   Independent Auditors’ Report;
                •   Independent Auditors’ Report on Internal Control Over Financial Reporting;
                    and
                •   Independent Auditors’ Report on Compliance and Other Matters.

            In its audit, KPMG LLP found that the financial statements were fairly presented, in
            all material respects, in conformity with U.S. generally accepted accounting
            principles. However, KPMG LLP identified two significant deficiencies related to
            controls over inventory tracking and review of open obligations, which were not
            considered material weaknesses. Further, KPMG LLP found no instances of
            reportable noncompliance with laws and regulations tested.

            KPMG LLP also issued a management letter dated December 3, 2008, discussing
            other matters involving internal control over financial reporting and its operation
            that were identified during the audit but were not required to be included in the
            auditors’ reports. This letter will be transmitted separately.
In connection with the contract, we reviewed KPMG LLP’s reports and related
documentation and inquired of its representatives. Our review, as differentiated
from an audit in accordance with generally accepted government auditing
standards, was not intended to enable us to express, and we do not express, an
opinion on the financial statements or conclusions about the effectiveness of
internal control or compliance with laws and regulations. KPMG LLP is responsible
for the attached auditors’ reports dated December 3, 2008, and the conclusions
expressed in the reports. However, our review disclosed no instances where
KPMG LLP did not comply, in all material respects, with generally accepted
government auditing standards.

Should you have any questions, please contact me at (202) 927-5789, or a
member of your staff may contact Donna Joseph, Manager, Financial Audits at
(202) 927-5784.

Attachment
United States Mint

      2008

 Annual Report
THIS PAGE INTENTIONALLY LEFT BLANK
   Financial Highlights
                                                                                                    % Change
        (Dollars in millions)             2008        2007        2006        2005        2004    2007 to 2008

Value of United States Mint Sales
 Circulating                         $ 1,294.5    $ 1,727.8   $ 1,271.9   $ 1,144.8   $   993.5     (25.1%)
 Numismatic Sale of Circulating Coins $    29.6   $    36.1   $    24.4   $    37.9   $    62.1     (18.0%)
 Numismatic Program                  $    527.6   $   515.4   $   490.5   $   317.5   $   279.1        2.4%
 Bullion Program                     $    948.8   $   356.1   $   536.6   $   270.7   $   315.7      166.4%

Gross Cost
 Circulating                         $    588.3   $   722.6   $   603.4   $   445.4   $   395.8     (18.6%)
 Numismatic Sale of Circulating Coins $     7.1   $     9.0   $    10.5   $    14.6   $    15.7     (21.1%)
 Numismatic Program                  $    467.7   $   466.6   $   417.2   $   244.3   $   237.6       (0.2%)
 Bullion Program                     $    931.0   $   351.6   $   524.3   $   265.2   $   313.1      164.8%
Seigniorage and Program Net Income

 Circulating Seigniorage             $    706.2   $ 1,005.2   $   668.5   $   699.4   $   597.7     (29.7%)
 Numismatic Seigniorage              $     22.5   $    27.1   $    13.9   $    23.3   $    46.4     (17.0%)
 Numismatic Program Net Income       $     59.9   $    48.8   $    73.3   $    73.2   $    41.5       22.7%
 Bullion Program Net Income          $     17.8   $     4.5   $    12.3   $     5.5   $     2.6      295.6%




                                                        1
                                                 Table of Contents
Director’s Letter ......................................................................................................................      3

Organizational Profile .............................................................................................................          10

Our Goals

     Exclusive Brand Identity ...................................................................................................             12

     Effective Coin and Medal Portfolio ...................................................................................                   14

     Excellence in Coin Design ................................................................................................               16

     Operational Efficiency and Highest Quality Standards .....................................................                               18

     Optimal Workforce and Workplace Culture ......................................................................                           20

Current and Future Challenges ................................................................................................                23

Message from the Chief Financial Officer ..............................................................................                       25

Management’s Discussion and Analysis

     Operating Results by Segment

          Circulating ...................................................................................................................     26

          Numismatic ..................................................................................................................       30

          Bullion .........................................................................................................................   33

     Transfer to the Treasury General Fund ..............................................................................                     36

     Performance Goals, Objectives and Results ......................................................................                         37

     Analysis of Systems, Controls and Legal Compliance ......................................................                                39

Limitations of Financial Statements ........................................................................................                  41

Independent Auditors’ Report .................................................................................................                42

Financial Statements ...............................................................................................................          44

Notes to the Financial Statements ...........................................................................................                 48

Required Supplementary Information

     Heritage Assets ..................................................................................................................       63

Independent Auditors’ Report on Internal Controls ................................................................                            64

Independent Auditors’ Report on Compliance and Other Matters ..........................................                                       70



                                                                        2
                                            December 3, 2008



To the American People, Members of the United States Congress,
the United States Department of the Treasury, Our Customers, and
Our Employees
The United States Mint is accountable to you, our constituencies:
the American people, because you are our ultimate shareholders and product users; the United States
Congress, because you authorize and oversee our operations and programs; the United States Department
of the Treasury, because we are part of the Treasury family of agencies and bureaus; our customers,
including the Federal Reserve Banks (FRB) (buyers of United States coins for circulation), retail customers
(buyers of our numismatic products) and investors (buyers of our bullion products); and, our employees,
because we honor your dedication and public service.

Our New Annual Report Format Welcome to our new annual report format. This year our annual
report looks more like one produced by a public company. We are first and foremost an agency of the
Federal Government. We comply with all statutory annual reporting requirements, but we operate very
much like a business. Our annual report should reflect that fact. For 2008, if we were a public company,
our total revenue would rank 710 among our Nation’s largest corporations.

Revenue from the sale of our coins to the FRB, retail customers and authorized bullion purchasers is
deposited into the United States Mint Public Enterprise Fund, a revolving fund account. Excess proceeds
from circulating coins are transferred to the Treasury General Fund as a means of financing the national
debt. Excess proceeds from the sale of numismatic and bullion items are transferred to the Treasury
General Fund as revenue available to pay for current Federal Government operations and programs.

It annoys me to read an annual report that focuses only on positive outcomes and ignores significant issues.
At the United States Mint, we see our products as extensions of America’s national identity. We believe
our annual report must be transparent to the public, so that citizens can hold us accountable through their
elected representatives. Our new annual report format is a comprehensive discussion of our agency’s
activities, including our operating results, challenges and risks, and strategic priorities. We will do our best
to honestly assess ourselves, take our lumps for the times when we fall short of expectations, and stand tall
when our results do our country proud.

I’ll begin with a quick summary of our coin programs and financial results and then explain the major
strategic realignment we have embarked upon. I will conclude with a description of the results you can
expect from the United States Mint in fiscal year (FY) 2009.

Our Coin Programs We had a full plate of Congressionally mandated programs this year. We
designed, minted and issued a record number of new coins in FY 2008.

Presidential $1 Coin We minted and issued James Madison, James Monroe, John Quincy Adams and
Andrew Jackson Presidential $1 Coins. We also designed and readied for production the Martin Van
Buren, William Henry Harrison, John Tyler, James K. Polk, and Zachary Taylor Presidential $1 Coins.
Beginning with President Harrison, our designs will feature our national motto, "In God We Trust," on the
obverse instead of being incused on the edge.


                                                       3
50 State Quarters®, District of Columbia and Territorial Quarters We minted and issued the Utah,
Oklahoma, New Mexico, Arizona, and Alaska commemorative quarters. We issued the final coin of the 50
State Quarters® Program, honoring Hawaii, in November 2008. In FY 2008, we also designed quarters
commemorating the District of Columbia, the Commonwealth of Puerto Rico, Guam, American Samoa, the
United States Virgin Islands, and the Commonwealth of the Northern Mariana Islands.

First Spouse Gold Bullion Coin We minted and issued the Dolley Madison, Elizabeth Monroe, Louisa
Adams, and Jackson's Liberty First Spouse Gold Bullion Coins. We also designed Martin Van Buren's
Liberty, Anna Harrison, Letitia Tyler, Julia Tyler, Sarah Polk, and Margaret Taylor's First Spouse Gold
Bullion Coins.

Native American $1 Coin A recently passed law required us to design and issue Native American $1
Coins. During FY 2008, we designed the first of these new coins, featuring Sacagawea on the obverse and
a new reverse design honoring Native American contributions to the Nation’s agricultural heritage. The
new coins will be issued in January 2009.

Lincoln One-Cent Coin We designed and unveiled the four reverse designs for the 2009 Lincoln
Bicentennial One-Cent Coin Program. Each reverse design represents a different aspect, or theme, of the
life of President Lincoln.

Commemorative Coins FY 2008 saw the close of the 2007 Little Rock Central High School
Desegregation 50th Anniversary Commemorative Coin Program and the 2007 Jamestown 400th Anniversary
Commemorative Coin Program. We also executed the 2008 American Bald Eagle Recovery and National
Emblem Commemorative Coin Program and created designs for the 2009 Louis Braille Bicentennial-
Braille Literacy Commemorative Coin Program and the Abraham Lincoln Commemorative Coin Program.

Commemorative Medals Congress passed and the President approved two Congressional Gold Medals—
one for Tenzin Gyatso, the Fourteenth Dalai Lama, and another for pioneering heart surgeon Dr. Michael
DeBakey—which we were honored to design, prepare, and strike.

In the midst of all the work mandated by Federal law, we did complete some unfinished business: the
recreation of Augustus Saint-Gaudens and President Theodore Roosevelt's rarest and arguably best version
of the Double Eagle. Overcoming a century's inability to create a high relief coin for mass production, our
2009 Ultra High Relief Double Eagle Gold Coin is the highest expression of the coin maker's art.

We had a lot of work on our plate. The 126 coin designs in one year were the largest number ever in our
history. But we rose to the task, completed them on time, and fulfilled every one of our mandates to mint
new coins and strike new medals.

But all was not rosy. We sell most of our numismatic coins through our website and that website went
down for six days. We did not manage this downtime well and received a lot of deservedly angry calls from
our customers. We also did not make the connection that a slowing economy may dramatically increase
demand for our bullion products and relied upon our strategy of “just in time” inventories. We should have
learned that, historically, gold and other precious metals are periodically subject to unanticipated market
volatility. However, instead of maintaining an inventory that would have prepared us to meet the next
surge in demand, we were reactive. Now we are competing with the rest of the world mints for a finite
supply of investment quality planchets from a limited number of suppliers. As a result, we did not live up
to our statutory mandate to mint and issue gold and silver bullion coins in quantities sufficient to meet
public demand. Additionally, our precious metal numismatic product pricing formulas are not as
transparent as they should be, and the process for re-pricing our products is cumbersome. As a
consequence, when the price of gold dropped, we had overpriced coins that did not sell. When the price of
gold rose dramatically, we had to stop sales because our products were underpriced.

We worked hard and successfully completed many new programs. However, we also made some mistakes
that we will learn from.




                                                     4
Our Results FY 2008 was a year of mixed results. By law and budget doctrine, success is measured
differently for each of our business lines—circulating coins, bullion coins, and numismatic products. In
aggregate, while total revenue exceeded last year’s record, earnings fell 25.7 percent to $806 million. After
retaining funds to finance current operating requirements, we returned $750 million to the Treasury General
Fund. Here’s a quick outline of what happened in our three lines of business:

Circulating Coins The slowing economy in FY 2008 was the main reason that orders for circulating coins
dropped dramatically from the level of recent years. When the economy slows, there are fewer cash
transactions. Businesses demand fewer coins from their banks, which in turn order fewer coins from the
FRB. The FRB then orders fewer coins from the United States Mint. The number of circulating coins we
shipped to the FRB in FY 2008 dropped from about 14 billion to under 10 billion, reducing our circulating
revenue from $1.7 billion to $1.3 billion.

We sell our coins at face value to the FRB and because, on average, we make our coins at a cost of 45
percent of face value, our seigniorage (the difference between our costs and face value) is $0.55 per dollar
issued. When the number of circulating coins we ship to the FRB decreases significantly, it has a negative
effect on the total seigniorage that we transfer to the Treasury. Our circulating coin seigniorage this year
was $706 million, down from $1,005 million in FY 2007. While we shipped 4.4 billion fewer coins than
the average level of the past four fiscal years, quarter and $1 coins, which generate a higher return per
dollar issued, made up a larger portion of shipments. Consequently, revenue and seigniorage did not fall as
significantly as shipments and remained consistent with fiscal years prior to FY 2007.

Two additional challenges affected our circulating coin operations. First, the dramatic increase in base
metal prices worldwide has reduced our seigniorage per dollar issued in recent years. In FY 2008,
however, base metal prices began to decline from former peaks. Unfortunately, lower volumes means that
we must allocate our fixed costs over fewer units, offsetting the benefit of lower metal prices. Metal costs
did increase significantly for $1 coins from last year. FY 2008 was the first year we had to purchase metal
at prevailing market prices for all $1 coin production. Both lower volumes and higher dollar coin
production costs negatively affect our seigniorage per dollar issued. An upsurge in metal market prices in
the future will erode seigniorage and further reduce seigniorage per dollar issued.

The composition of United States coins is specified by law, and any change in the composition of our coins
must be legislated by Congress and approved by the President. The House of Representatives passed
legislation and the Senate is considering several proposed bills to give the Secretary of the Treasury
authority to change the composition of United States coinage. While there are many ways to address this
issue, each with its merits, we are confident that both Congress and the United States Mint have one
outcome in mind—to save taxpayers an average of approximately $60 million a year lost by using
expensive base metals in our coins. We are hopeful that we will have a solution in this 110th Congress, or
earlier next year in the new Congress.

The other challenge was a one-time inventory adjustment of coins by the FRB within its various
distribution terminals. The FRB believed that, given the slowing economy, it had too many coins on hand.
We are working more collaboratively with the FRB to determine appropriate inventory levels, and will start
a strategic stockpile of coins in FY 2009. This will provide a reserve inventory of circulating coins to
issue, should a surge in the economy require more coins than we can currently produce.

Numismatic Coins Retail sales of high quality versions of our circulating coins and commemorative coins
remained strong in spite of the slowing economy. We came close to matching our FY 2007 record unit
sales with revenue totaling $557 million in FY 2008. Our mandate for numismatic coin sales is not to
maximize profit but to recover costs and keep prices as low as practicable so that Americans can afford
them. To avoid having the taxpayers subsidize the cost of numismatic products, we manage to a 15 percent
margin as a hedge against unforeseen risk. In FY 2008, our numismatic net income was about $82 million.
In the coming year, we will be exploring ways to keep the price of numismatic products as close to actual
cost as practicable, while managing to a reduced margin or employing different means as a hedge against
risk.




                                                      5
Bullion Coins One result of a slowing economy is increasing demand for precious metal products. We
had record sales of silver bullion coins and a significant increase in gold bullion coin sales from last year.
Total revenue neared $949 million, more than doubling last year’s bullion sales revenue. By law, the
purpose of the bullion coin program is to make precious metal coins available at minimal cost to investors,
so we manage to a two-percent margin.

While we met demand for platinum coins, we fell short of fulfilling our statutory commitment of meeting
investor demand for gold and silver bullion coins. Like all the other mints around the world, we compete
for a limited supply of investment-grade gold and silver planchets. In FY 2008, we produced more ounces
of precious metal bullion coins than any prior year, a feat that we are proud of. However, we could not
procure enough planchets to meet demand. We were forced to temporarily suspend sales and established
allocation programs to equitably distribute available inventory to authorized purchasers.

Our Strategic Realignment FY 2007 was the final year of a previous strategic plan. For FY 2008,
we began implementation of a new five-year strategic plan—a collaborative effort between management
and union leadership. Among our expected outcomes are coins of greater artistry and historical
significance, error-free coins, additional retail customers, increased efficiency, and status as one of the best
places to work in the Federal Government. Our plan answers five questions:

Where do we want to be? We answered this question by defining our vision, mission, values, and
priorities.

Vision is a statement of aspiration. Our vision is to embody the American spirit through the creation of our
Nation’s coins and medals. Every coin and medal that we produce should say something about our
country’s greatness. We agree with President Teddy Roosevelt, who believed coins are an extension of a
country’s national identity and should project the country’s values, principles, and ideals to the rest of the
world.

Mission is a statement of who we are: The men and women of the United States Mint serve the Nation by
exclusively and efficiently creating the highest quality, most beautiful and inspiring coins and medals that
enable commerce; reflect American values; advance artistic excellence; educate the public by
commemorating people, places, and events; and fulfill retail demand for coins.

Values define how we will behave while doing our work. Our values are accountability, leadership,
trust/respect/integrity, communication, continuous improvement, diversity, ethics, excellence,
responsiveness, innovation, partnership/teamwork, and openness to change. It is a long list because, as
labor and management collaboratively worked to list the values we wanted to live by, it became clear that
there was a deep yearning for a higher code of conduct.

Our goals are our priorities for the next five years:
• Establish and reinforce the exclusive brand identity of the United States Mint
• Create and execute the most effective coin and medal portfolio strategy
• Achieve greater excellence in coin and medal design
• Increase operational efficiency while meeting the highest quality standards
• Develop an optimal workforce and workplace culture

How we will know when we get there? To gauge our progress toward our goals, management and labor
formulated fourteen measurements (metrics) of progress. Reducing hundreds of possible metrics to
fourteen was difficult, but we narrowed it to those we believe are the best performance indicators to keep us
focused on the actions needed to achieve our goals.

The key metrics or performance indicators were incorporated into the appropriate employees’ performance
plans, and budgets and financial incentives were aligned to maximize success. For the first time, we have
monthly meetings with management and labor to analyze our progress, and a monthly report card is
distributed to all employees so they can track our progress.




                                                       6
We gave ourselves a report card grade of C for FY 2008. Our workers are A players, so how can our result
be a C? The grade reflects our current performance against the organization we want to become. We are
working hard but not smart. We want to inject new behaviors, discipline and versatility to achieve success
by intent and not accident. Our FY 2008 performance in areas of customer satisfaction, employee safety
and employee satisfaction is not on par with the world class agency we are striving to become. While we
have fulfilled our mission and have various individual successes, as a whole, the United States Mint should
excel beyond minimal requirements. From the outside, the United States Mint appears to be delivering an
average performance, and it is, but we aspire to more. We aspire to excellence.

Where are we now? We did an honest assessment of our strengths and weaknesses in the seven areas
outlined in the Baldrige Quality Award Criteria for High Performance (criteria used for judging within a
highly-respected award system for industry workplace performance). We concluded that the United States
Mint has much strength and several weaknesses. Our strengths include pride in our organization,
employees, history and products. We have adequate resources, clear direction, and good working
conditions. Weaknesses include inadequate accountability, a risk-averse culture and a lack of coordination
and trust.

How do we get there? There is an obvious gap between our current situation—where we are now—and
our aspirations—where we want to go. We know that most strategic realignments fail in their execution.

How will we prevent failure? Part of the answer lies in process improvement. Our five-year plan is being
broken down into year-by-year action steps. Each United States Mint department will develop a 12-month
action plan aligned with the overall strategic plan. Departmental actions will be assigned and incorporated
into individual employees’ performance plans.

Another part of the solution is structure. We will ensure that our organizational structure meets the needs
of our mission and attains the results we are seeking. Talent wins games; teamwork wins championships.
We will go beyond the stovepipes of the organizational chart by using cross-functional task forces led by
agency officials who have the authority to make decisions and will be held accountable for results.

The last and perhaps most difficult part is coaching and mentoring our employees. We have not done this
consistently before and need to learn how to do it before we can achieve our objectives. Coaching and
mentoring means giving employees the skills, feedback, individual attention, and inspiration they need to
perform to expectations and continuously improve.

What will or might change in our future environment? We examined our current environment to
project conditions over the next five years. We analyzed demographic trends; numismatic product
competition; technology; current and projected economic conditions; our political and regulatory
environment; and our suppliers, customers and retail environment.

One critical finding was that we are not becoming a cashless society, as we previously believed. Between
2001 and 2005, consumer use of cash was consistent at 33 percent of all transactions. Credit card
transactions grew at the expense of checking accounts. Debit and gift card growth hurt credit cards and
checking.

Think about your own experience and those of your parents and grandparents. For big-ticket items like
appliances, clothing, or even an expensive dinner out, the Depression-era generation used cash, the post
World-War II generation used checks, and baby boomers used credit cards (and now debit cards). To buy a
soda or gum at a convenience store, on the other hand, most people continue to pay cash. Our forecast is
that demand for coins will stay the same or even increase slightly for the foreseeable future.

Another notable trend is the world-wide movement away from lower denomination coins to higher
denomination coins. Most countries, like the United States, are seeking cost-effective ways to produce the
lowest denomination coins by changing their size or metal content. Some countries have eliminated their
lowest denomination coins altogether. Many countries have developed higher denomination coins, some
the equivalent of $5.


                                                      7
We aim to realize potential benefits for the American people by developing more accurate predictions of
demand and inventory-level adjustments to ensure the right number of coins are in circulation. Lowering
the manufacturing costs of all of our coins, especially those with negative seigniorage like the penny and
nickel, is another beneficial avenue we are pursuing. We will also double our efforts to increase the
success of the $1 coin through market development and aggressive, but cost-effective, programs aimed at
overcoming barriers to the circulation of these coins.

Finally, demographic trends tell us that our typical retail customer base is shrinking. Our core numismatic
customer tends to be an older white male in the upper middle class, college educated, and often retired.
Our mission is to reach as many Americans as possible—a cross section of America. That means
expanding the potential of numismatic product gift-giving among women. It means exploring ethnic
markets like our recent outreach pilot to Asian Americans, a group with a special affinity for gifts of 24-
karat gold.

The success of the 50 State Quarters® Program has created 147 million casual collectors. This program has
educated a generation of children about geography and state history. The fact that almost half of our
citizens show interest in United States coinage means there is an opportunity for us to extend our appeal to
Americans of all ages and backgrounds.

The Outlook for FY 2009 I expect our financial results to improve slightly next year by increasing
seigniorage per dollar issued and making our numismatic products a greater value to our customers through
improved efficiency, quality, and service.

Small Improvement in Overall Financial Result If the economy does not improve until the end of 2009,
as many predict, we anticipate that circulating revenue will be up only slightly and total seigniorage will
see a very modest increase. We are predicting a slight improvement in our financial results based primarily
on higher circulation of the $1 coin and efforts to reduce operational costs. Sales of the $1 coin to the FRB
are likely to increase from FY 2008 levels because the first of the newly designed Native American $1
coins will go into circulation in FY 2009. We will also conclude pilot campaigns in four cities that we
hope will significantly increase demand and usage of $1 coins. These pilots will test our hypothesis that a
combination of banks adequately supplied with $1 coins, retailers educated and trained to accept and
dispense $1 coins, and consumers educated and motivated to use $1 coins will encourage robust circulation
in a specific geographic area. What we learn from these geographic pilots will help us with a larger
regional or national rollout.

Base metal prices continue to fluctuate. If prices continue to climb, there may be further erosion of
seigniorage per dollar issued on circulating coins. We are optimistic that Congress will pass legislation
enabling the United States Mint to more aggressively address the composition and cost of our circulating
coins, but implementation will take time. Should legislation pass, we predict that the first positive effects
of any content change will occur in FY 2010.

Numismatic Revenues Will Increase We expect numismatic revenue to increase and improvements in
planning to result in a margin lower than 15 percent. We are counting on two initiatives to achieve this
result: 1) the one-year introduction of the 24-karat 2009 Ultra High Relief Double Eagle Gold Coin, and 2)
providing the products our customers buy year-round earlier in the year.

Bullion revenues are projected to remain high next year. To the extent that a weak economy may lead to
additional precious metal sales, I expect bullion sales at the United States Mint to continue to be strong.
We are currently working to expand the number of suppliers of quality gold and silver planchets.

Improved Non-financial Results You will see some improvement next year in our non-financial results.
We will strive to raise our report card grade from a C. We know we can do better. Parts of our foundation
are not as strong as they need to be and require renovation, much like any house built in 1792. FY 2009
will be a rebuilding year. We will improve by closing the gap between where we are now and where we
want to be.


                                                       8
Internal initiatives will have a constructive impact on reinforcing our foundation. These initiatives include
developing a strong brand identity, creating an improved portfolio of products, creating a master start-to-
finish coin production and sales schedule to give customers advance notice of products and reduce
backlogs, and using state-of-the-art counters and digital vision inspection systems to improve product
quality.

People are our best asset, and we have not invested in them enough lately. In FY 2009, we will
institutionalize a Performance Management System, aligning our goals and metrics with employee
performance plans and rewarding employees for their part in our progress. We will continue to build upon
a leadership development program for all managers and supervisors. Our plans and actions will begin to
reflect our values—especially accountability, teamwork, trust, and ethics—on a daily basis.

Conclusion: Business-as-usual Is Not Good Enough When I was sworn in as the 38th Director
of the United States Mint on September 5, 2006, I became a steward of a government agency with a proud
history uniquely intertwined with the history of the United States. On the surface, we produced good
results that pleased most people, but we know there is plenty of room to improve organizational and
operational efficiency and achieve better results.

Business-as-usual and average results are not enough. We can be a premier government agency whose
service to the American public is characterized by excellence. We are committed to nothing less.

The appointment of the United States Mint Director to a five-year term provides enough time to make a
long-term positive impact. I believe that I should be accountable to you and leave this agency a much
better place than I found it. I thank you for giving me an opportunity to do so, and to serve my country at
the United States Mint.

Sincerely,




Edmund C. Moy
United States Mint Director




                                                      9
                        The United States Mint
                        Organizational Profile
Overview
Established in 1792, the United States Mint is the world’s largest coin manufacturer. Our vision is to
embody the American spirit through the creation of our Nation’s coins and medals. The men and women
of the United States Mint serve the Nation by exclusively and efficiently creating the highest quality, most
beautiful and inspiring coins and medals that enable commerce; reflect American values; advance artistic
excellence; educate the public by commemorating people, places and events; and fulfill retail demand for
coins.

The United States Mint is committed to achieving efficient operations and providing value to the American
people. Since FY 1996, the United States Mint has operated under the United States Mint’s Public
Enterprise Fund (PEF). As authorized by Public Law 104-52 (codified at 31 U.S.C. § 5136), the PEF
enables the United States Mint to operate without tax dollars. We generate revenue through the sale of
circulating coins to the Federal Reserve Banks (FRB), numismatic products to the public and bullion coins
to authorized purchasers. Revenue in excess of all liabilities and short-term operating costs is transferred to
the United States Treasury General Fund.

The United States Mint operates six facilities and employs approximately 1,900 employees across the
United States. Each facility performs unique functions critical to our overall operations. All policy
formulation, program management, research and development, marketing and customer service operations
are performed at our Headquarters in Washington, D.C. Manufacturing facilities in Philadelphia,
Pennsylvania, and Denver, Colorado, produce coins of all denominations for circulation. Both facilities
also produce dies for striking coins. All sculpting and engraving of circulating and numismatic coin and
medal designs is performed in Philadelphia. Production of numismatic and bullion products is primarily
performed at facilities in San Francisco, California, and West Point, New York. All four plants produce
commemorative coins as authorized by laws passed by Congress and approved by the President. The
United States Bullion Depository at Fort Knox, Kentucky, stores and safeguards United States gold and
silver bullion reserves.

Primary Responsibilities
The United States Mint’s primary responsibilities include the following:

Circulating The United States Mint is responsible for enabling commerce by minting and issuing
circulating coins in amounts necessary to meet the needs of the United States. We manufacture and sell
circulating coins to the FRB for distribution to the Nation’s depository institutions. Commercial banks and
other financial institutions then place coins into circulation to meet the demand of retailers and the public.
Depository institutions can return coins to the FRB when they have more than necessary to meet demand.
The United States Mint sells circulating coins to the FRB at face value. The net return, known as
seigniorage, is the difference between the face value and the cost of producing circulating coinage.
Seigniorage is transferred on a quarterly basis to the Treasury General Fund to help finance the national
debt.

Numismatic The United States Mint prepares and distributes numismatic items, including proof and
uncirculated versions of coins, proof and uncirculated coin sets, other special sets, commemorative coins,
and medal products. These products are manufactured and specially packaged for collectors and other
members of the public who desire high-quality versions of the Nation’s coinage as gifts or mementos.
Through commemorative coin programs passed by Congress and approved by the President, the United
States officially honors people, places, and events. Such programs typically raise money for recipient
organizations and worthy causes with evident public support. Customers can purchase numismatic coin
and medal products through the United States Mint website, by phone order, or by mail order. Public



                                                      10
points of sale are also available at the United States Mint facilities in Philadelphia, Denver and Washington
and a United States Mint kiosk in Union Station in Washington. The objective of the United States Mint
numismatic program is to make numismatic products accessible, available, and affordable to the American
public. We make every effort to control costs and keep the prices of numismatic items as low as
practicable. Any net proceeds from the sales of numismatic products are transferred to the Treasury
General Fund to help reduce the deficit.

Bullion The United States Mint manufactures and issues gold, silver and platinum bullion coins through a
network of authorized purchasers, which include precious metal and coin dealers, brokerage companies and
participating banks. Bullion coins provide investors a simple and tangible means to own coins whose
weight, content and purity are guaranteed by the United States Government. Coins are available to the
general public through authorized purchasers.

Medals The United States Mint prepares and strikes National and other medals. Congressional Gold
Medals are selective awards authorized by Congress and approved by the President to recognize people,
events, places, and institutions that have significantly affected the country or the world. Congressional
Gold Medals honoring specific individuals in recognition of their achievements and contributions are
widely considered the highest honor the Nation can bestow. The United States Mint also strikes bronze
duplicates of these medals, as well as “list” medals, which are often a part of continuing medal series, such
as the Presidents of the United States, and Historic Buildings of the United States. We sell bronze versions
of thesecommemorative medals to the public as part of the numismatic program.

Protection The United States Mint is responsible for protecting over $200 billion in United States assets
stored in our facilities. The Office of Protection safeguards United States Mint assets, such as our products,
employees, facilities and equipment, as well as non-United States Mint assets in our custody, including
gold and silver bullion reserves held at the United States Bullion Depository at Fort Knox.




                                                     11
                                                Our Goals:

                      Exclusive Brand Identity
The United States Mint is a well-established brand within both the
national and international numismatic coin collecting community.
However, recognition of the agency and our products and services is less prevalent among the general
public and within the retail marketplace. The United States Mint believes building a trusted, highly-
recognized brand is vital to expanding our customer base and ensuring continued success of numismatic
and bullion programs. To the American people, the United States Mint should be distinguished for
exemplifying accountability, integrity, innovation and excellence in the production and sale of the Nation’s
coins and medals.

Current Status of the United States Mint Brand In FY 2008, we created a Brand Identity
Steering Committee (Committee) to develop and establish a United States Mint branding strategy. The
objective of this effort is to establish and reinforce the exclusive brand identity of the United States Mint.
Some of the key components of this objective are as follows:
• Increasing the public’s recognition of the United States Mint as the exclusive origin of United States
  coins and medals, including circulating coins, numismatic products, precious metal investment coins, and
  national medals;
• Reinforcing the distinctiveness, individuality, and official authority of United States Mint marks, names,
  symbols, and trade dress;
• Diminishing the public’s likelihood of confusion and mistake between the United States Mint and other
  sources of coins and medallions, such as private mints and dealers; and
• Promoting the reputation, goodwill, confidence and quality associated with the United States Mint name
  and marks.

The Committee is currently seeking information from other Federal government agencies, foreign mints
and private sector entities with branding experience and capabilities. With this information, we will
determine the appropriate next steps to achieving our goal of establishing the United States Mint’s public
image through the consistent use of a single, recognizable brand.

Customer Satisfaction The foundation of a trusted, highly recognized brand is high quality products
and services. Developing superior products and providing responsive customer service has enabled the
United States Mint to retain core numismatic customers. Maintaining product quality and customer service
is critical to attracting new customers, fostering the United States Mint brand and expanding our customer
base into underserved segments of the population.

Since FY 2003, the United States Mint has utilized a bimonthly Customer Satisfaction Measure (CSM)
survey to capture customer satisfaction with the United States Mint’s performance as a supplier of coins
and coin products and the quality of those products.

While 80 percent of active customers report high overall satisfaction with the United States Mint’s
performance as a product supplier, this percentage has declined steadily since FY 2006. Customer
satisfaction with product quality, conversely, has remained high with about 95 percent of active customers
highly satisfied with the quality of our products. Problems and delays with orders, poor communications
and customer service issues all contributed to lower overall customer satisfaction in FY 2008. CSM survey
results indicate that untimely order fulfillment was the most significant factor in the decline.

The United States Mint’s ability to timely deliver products to numismatic customers declined significantly
in 2008 due to a number of factors. We started 2008 with an aggressive product launch schedule.
Production capacity was unable to meet demand for the multiple products released in the beginning of the
calendar year. Many products had to be placed on back order until production capacity could recover. In


                                                      12
January 2008, the United States Mint temporarily suspended operation of our online catalog for six days to
ensure a reliable transition to a new service provider. Finally, in February 2008, a tornado hit and
significantly damaged our product fulfillment facility in Memphis, Tennessee. It took five days to restore
the facility to working operation and resume deliveries.

In FY 2009, the United States Mint plans to thoroughly reexamine the entire production process from
design to distribution. A key component of this effort is to better integrate the product launch schedule
with expected production capacity. This should ensure that adequate inventories are available when
products are released and minimize backorders. We will also more directly measure and track the duration
between order and fulfillment dates in FY 2009 to identify potential problems and implement corrective
action. We plan to revise the CSM survey to evaluate the impact of our efforts and obtain a better
understanding of our customers and how to serve them.

American Public’s Awareness and Favorability The public’s view of the United States Mint is
particularly important to the success of our Congressionally mandated programs. The support and
involvement of the American public is important to the enactment and acceptance of special circulating
coinage, such as 50 State Quarters® and Presidential $1 Coins. The United States Mint conducts a national
survey to measure the population’s knowledge of our main functions and obtain baseline job approval
ratings. Three waves of the national survey were conducted in FY 2008.

Average results from the three surveys indicate that about half of American adults claimed to have some or
extensive knowledge of the United States Mint. However, only one in five exhibited actual knowledge
through identification of the agency’s multiple primary functions. Nearly half, 49.3 percent, of adults did
correctly identify the United States Mint as the agency that produces United States coins. Despite
confusion over the United States Mint’s exact role, 26.0 percent of adults gave the United States Mint an
excellent job performance rating. An additional 32.3 percent of adults gave the agency a good rating.

Adults who knew more about the United States Mint viewed the agency slightly more favorably than those
with less knowledge. Statistical analysis confirmed that knowledge of the United States Mint was not a
direct driver of positive ratings. Rather, knowledge of the United States Mint drove reliability and honesty
factors, which in turn produced positive job ratings. This result indicates that focusing marketing and
branding on the reliability and honesty of the United States Mint will most effectively enhance public
recognition and perception.

Initial branding survey results are driving current and future initiatives to build a strong United States Mint
brand identity. As these initiatives are implemented, the survey questionnaire will be refined to evaluate
their impact on the public’s awareness and perception of the United States Mint.




                                                      13
                                               Our Goals:

           Effective Coin & Medal Portfolio
The United States Mint numismatic program has experienced
dramatic growth over the past several years. Over the past 10 years, revenue has
grown from $160.8 million in FY 1999 to $557.2 million in FY 2008. The recent enactment of legislation
has allowed us to expand product lines in both numismatic and circulating business segments. While sales
of both new and core recurring products have been strong, we recognize the need to continually make
improvements in the portfolio of products we offer. Our goal is to develop the optimal product portfolio to
maximize our customer base and units sold while minimizing customer acquisition costs. We plan to
achieve this goal by analyzing current and past product offerings, reassessing customer demand and
exploring new ethnic and geographic markets.

Coin and Medal Portfolio Assessment The United States Mint numismatic product portfolio
currently includes over 150 products with approximately 10 intersecting product lines. At the close of FY
2008, we began a thorough assessment of our coin and medal product portfolio. The assessment is
intended to prioritize current product offerings as well as new product investment.

The assessment will initially analyze the performance of current and prior product offerings and the
customer segments these products target. By identifying our most and least popular products, we can better
prioritize advertising and production resources. We can also work to eliminate unpopular or obsolete
products from our portfolio. Once we have fully assessed our current product offerings, we will begin
examining underserved market segments and developing new products to target them.

50 State Quarters® Program A significant portion of United States Mint operations remains
dedicated to the 50 State Quarters® and Presidential $1 Coin Programs. In FY 2008, the United States Mint
minted and issued commemorative quarters honoring Utah, Oklahoma, New Mexico, Arizona, and Alaska.
The program’s final coin, honoring Hawaii, was issued at the beginning of FY 2009. This will be followed
by a one-year program commemorating the District of Columbia and the United States Territories: Puerto
Rico, Guam, American Samoa, the United States Virgin Islands and the Commonwealth of Northern
Mariana Islands.

The popularity of the 50 State Quarters® products has increased awareness of the United States Mint,
boosted circulating revenue and seigniorage through sustained collector and transactional demand and
augmented numismatic program results. Since the program began in FY 1999, annual quarter shipments to
the FRB have averaged about 3.4 billion coins. Since FY 2005, quarter proof and silver quarter proof sets
have contributed an average of 1.3 million units and $24.7 million to numismatic program annual unit sales
and revenue, respectively.

Unless new legislation is enacted, the United States Mint will no longer mint and issue quarters featuring
rotating designs in FY 2010.

Presidential $1 Coin Program The United States Mint continued America’s tribute to the Nation’s
Presidents in 2008, issuing four Presidential $1 Coins featuring Presidents Madison, Monroe, Adams, and
Jackson. While first-year shipments of the Presidential $1 Coins to the FRB totaled 674 million coins,
shipments have steadily declined since the George Washington Presidential $1 Coin release. Total
shipments fell 31.2 percent to only 464 million Presidential $1 Coins in FY 2008. This decline is largely
attributable to weakening collector demand as the program entered its second year and honors lesser known
presidents. While patterned after the 50 State Quarters® Program, the Presidential $1 Coin Program has not
stimulated comparable transactional demand to offset waning collector demand. Depository institutions
and retailers consider the Presidential $1 Coin more a collectible than legal tender for commerce.

The Presidential $1 Coin Act (Public Law 109-145) mandates the United States Mint to identify, analyze


                                                     14
and overcome barriers to the robust circulation of $1 coins. Promoting circulating usage of the coins is also
beneficial to our financial results because $1 coins can be minted and issued at a higher seigniorage per
dollar than any other denomination. Achieving steady and sustained transactional demand for $1 coins is
critical to the long-term success of the Presidential $1 Coin Program.

At the start of FY 2008, the United States Mint formed the Office of $1 Coin Programs (O$CP) to identify
and remove barriers to circulation while motivating Americans to accept and use $1 coins as normal
currency for everyday transactions. The Office initially focused on ensuring compliance with the
Presidential $1 Coin Act and encouraging acceptance with financial institutions. As part of a Local
Activation Plan, O$CP met with 96 bank representatives in the Washington D.C. area to familiarize them
with the program and provide materials to help promote the coins. The vast majority of representatives
viewed the Presidential $1 Coin as a collectible coin distributed by the FRB to make it widely available to
the American public. They generally dispensed it only when asked. Banks also found the FRB minimum
ordering quantity for $1 coins often exceeded their need and storage capacity. Dispensing $1 coins only
upon request, most banks quickly reached or surpassed their storage capacity with the initial releases.
Consequently, they stopped ordering the coin from the FRB and demand steadily declined.

Direct Shipment In May 2008, the United States Mint initiated the Circulating $1 Coin Direct Ship
Program to provide $1 coins to banks and retailers in smaller volumes than offered by the FRB. Financial
institutions, retailers and individuals can now order boxes of 250 or 500 $1 coins directly from the United
States Mint free of postage and handling fees. Initial orders for the coins were unexpectedly strong. The
first inventory of John Quincy Adams Presidential $1 Coins was exhausted after only three weeks. Such
strong sales indicate that some demand for the Presidential $1 Coins is not being met through the normal
distribution channels. Just over seven million $1 coins were shipped through the Direct Ship Program at
the close of the fiscal year.

Proactive Approach In FY 2008, the United States Mint conducted research on the awareness, sentiment
and use of the Presidential $1 Coin among the American public, retailers and banking personnel. Results
indicated that institutional, attitudinal and behavioral barriers would need to be overcome to achieve robust
circulation of the coins. The themes the United States Mint had originally used to promote the Presidential
$1 Coin – convenience, utility, educational value and patriotism – were immaterially or negatively
associated with propensity to use the coin.

From the O$CP’s initial work and research, it became apparent that an innovative and proactive approach
was necessary to stimulate circulating demand. The United States Mint contracted with a marketing
consortium of three companies specializing in public relations, advertising and retailer activation to help us
develop a comprehensive strategy for promoting robust circulation of the $1 coin.

A three-pronged strategy was proposed and developed to be tested in a four-city pilot program. In addition
to standard public relations and advertising efforts used in the past, the United States Mint would also focus
on retail activation by promoting usage directly with large scale retailers. We found that certain themes
resonated much more strongly with people in initial tests. These themes center on the durability and
longevity of the coins, the 100 percent recyclable materials used to produce coinage and the billions of
dollars the Nation could save over time by using the $1 coins. We are testing the new themes and
promotion techniques in four pilot cities across America: Charlotte, North Carolina; Austin, Texas; Grand
Rapids, Michigan; and Portland, Oregon.

The four-month pilot was initiated in August 2008. Integrated television, radio, print and web advertising
promoting the coins as “Real Change” was disseminated throughout the four cities. An active public
relations campaign was initiated with local media. National, mid-size and small retailers were provided
free, customized point-of-sale materials, a retailer website with program information and innovative ideas
to promote customer involvement, and the support from an on-site United States Mint representative. We
will conduct a thorough review of the pilot when it concludes. If successful in generating a significant
increase in transactional demand, a regional or national program will be rolled out in 2009.




                                                      15
                                               Our Goals:

                    Excellence in Coin Design
The United States Mint recognizes and embraces its responsibility
to do more than merely craft coins and medals.                                Coins are one of the most
visible, tangible representations of a country. Thus, we believe our products are exceptional artistic media
for expressing our national character, memorializing our past, and embodying our future. While prior
successes in coin and medal design are noteworthy, the United States Mint strives to reach new levels in
design excellence. A concerted, agency-wide plan is necessary to enhance successful programs and realize
greater achievements. By assembling exceptional talent, furthering technological advancement, and
fostering designs that express the American spirit and values, we intend to advance a neo-renaissance of
beautiful coin and medal design.

What Is Artistic Excellence? The United States Mint has established five core principles to define
artistic excellence and direct our efforts. Each coin and medal we produce in the future shall embody these
five principles.

Uniquely American While bridging various styles, mediums and compositions, great American art
commonly expresses the same intrinsically American themes: democracy, freedom, equality, diversity, and
individualism. The United States Mint’s coins and medals should also convey such uniquely American
ideals.

Exemplifies the 21st Century Like much historic art, coins can be classified and identified by their origin
and era. Our coins and medals should likewise be recognizable by their American origin and artistic era, as
well as our Nation’s technological advances.

Tells a Story Often American coin designs focus too much on depicting a subject’s appearance rather than
telling the subject’s compelling story. Employing symbolism and imagery will allow our coins and medals
to convey much more than portraiture.

Advance Our Craft The United States Mint strives to become known as an innovator in coins and medal
design. Technological advances should not only enhance our design capabilities, but also drive the design
process itself. Our coins and medals should embody cutting edge techniques and innovative designs.

Artistically Beautiful Coins and medals serve as a unique medium that can embody all the principles
discussed while also being aesthetically beautiful.

Artistic Infusion Program The Artistic Infusion Program (AIP) was launched in 2004 to enrich and
invigorate our design capabilities by developing a group of visual artists to create and submit designs for
selected coin and medal programs. The artists, chosen from a nationwide competition, represent a broad
range of disciplines including illustration drawing, sculpting, painting, and graphic design. Since its
formation, the AIP has evolved to include a refined pool of talented American artists to complement our
elite and accomplished team of sculptor-engravers. Several Master Designer artists have been with the
program for multiple years and have developed into top performers, earning an impressive list of design
credits.

Recently enacted laws, including the Presidential $1 Coin, First Spouse 24-Karat Gold Coins, District of
Columbia and United States Territories Quarters, and Lincoln One-Cent Redesign have required the United
States Mint to significantly increase our coin and medal design capacity. The exceptional designs of AIP
artists have contributed to the success of these programs and stimulated newfound interest in circulating
and numismatic coinage. Our goal is to continue to develop and mentor new and existing AIP artists to
achieve further success.




                                                    16
Recreating a Masterpiece In the early 1900s, President Theodore Roosevelt called for a
“renaissance” in American coinage. He believed that the coins of the era needed to be more attractive and
better embody America’s national identity and growing preeminence on the world stage. President
Roosevelt appointed Augustus Saint-Gaudens, a renowned sculptor and artist, to redesign the Nation’s
coins. Sharing President Roosevelt’s vision, Saint-Gaudens designed what has been called the most
beautiful coin ever minted in the United States, the 1907 $20 Double Eagle Gold Coin.

There were four variations of the 1907 Double Eagle. The minting process of the day was not conducive to
the initial high relief version that Saint-Gaudens and Roosevelt specifically desired. Eventually a reduced
relief coin, requiring less metal, was developed and mass produced. Saint-Gaudens’ full vision for the
production of an ultra high relief coin was never realized until now.

Through the advent of modern technology, the United States Mint will be able to mass produce a
contemporary, but faithful rendition of Augustus Saint-Gaudens’ 1907 Double Eagle original design. In
2009, we will issue the 2009 Ultra High Relief Double Eagle Gold Coin to fulfill Augustus Saint-Gaudens’
vision. Through 21st century technology, original Saint-Gaudens coin plasters were digitally mapped.
Digital design and die-making processes were used to update the Saint-Gaudens sculpture to reflect the
year 2009, the additional four stars representing the current 50 states, and the inscription “In God We
Trust.” The 2009 Ultra High Relief Double Eagle Coin is a uniquely American artistic expression –
created by an American sculptor and crafted by an iconic American institution.

Measuring Artistry Continued award recognition in national and international coin competitions
provides affirmation of our coin designs’ artistry. A Coin of the Year (COTY) award is one of the most
prestigious accolades a coin designer or national mint can receive. Coins from throughout the world are
selected on the basis of excellence in artisanship, practicality, and general appeal. The COTY judging
panel consists of more than 50 leading experts in minting, technology, numismatic journalism and coin
collecting. The 25th COTY Awards were held in Berlin, Germany, in February 2008. United States Mint
coins received awards in three of the 10 COTY categories. The Ben Franklin Commemorative Coin took
the Most Historically Significant Coin award. The Nevada Commemorative Quarter-Dollar received
awards for Best Trade and Most Popular Coin categories.

With greater emphasis placed on excellence in design, more awards are anticipated in the near future.
However, awards alone do not address the root causes of gaps in artistic excellence within the agency.
Objective evaluation of all our designs is necessary to achieve new levels in artistic excellence. In FY
2009, the United States Mint will ask members of the Citizens Coinage Advisory Commission (CCAC) and
the Commission on Fine Arts (CFA) to grade designs created for all coins and medals. Congress
established the CCAC in 2003 to advise the Secretary of the Treasury on themes and designs of United
States coins and medals and represent the interests of American citizens and collectors. The CFA,
established by Congress in 1910, provides expert advice to the President, Congress and the heads of
departments and agencies on the design and aesthetics of media of Federal interest, including national
coins, medals and memorials. Members of the CCAC and CFA will evaluate and score all United States
Mint coin and medal designs based on how well they embody the five core principles of artistic excellence.
Scores will provide objective feedback to our artists and motivate progress toward superior designs.




                                                    17
                                                Our Goals:

Operational Efficiency & Highest Quality
               Standards
The United States Mint is responsible for enabling commerce by
minting and issuing circulating coins in amounts necessary to meet
the needs of the United States. We continually strive for efficient coin manufacturing and
sales operations. Greater efficiency benefits the American public as well as our customers. By reducing
production and administrative costs, the United States Mint is able to transfer larger sums to the Treasury
General Fund. Greater productivity and efficiency also allow us to keep the sale price of our numismatic
products as low as practicable for our customers.

Continuous Supply of Circulating Coins The United States Mint is responsible for providing an
uninterrupted supply of circulating coin to meet the needs of the United States. In FY 2009, we will begin
establishing a strategic coin reserve to ensure continuous supply of circulating coins in the event of coin
demand exceeding production capacity. The strategic reserve will hold sufficient coinage to compensate
for an unexpected disruption in operations equivalent to the loss of one circulating plant for a period of
three months. Production disruptions beyond that time may require additional measures. The United States
Mint plans to build the coin inventory over the next three years by taking advantage of excess production
capacity during periods of lower coin demand. The accumulated inventory will also allow the agency to
quickly meet an unexpected spike in coin demand.

Digital Design Through substantial investment over the past several years, the United States Mint has
made significant technological advances in coin design, production and packaging. For over 150 years, the
process for making dies to strike coins remained essentially unchanged. To create each die, first a
repetitive hand sculpting process was used to develop a large-scale clay or plaster model of the original
coin design. A hard cast epoxy version would then be generated from the model. This epoxy model would
be mounted on an engraving machine which then slowly traced the model’s details with a small stylus.
Through a series of mechanical reductions, the machine would cut the traced pattern into a coin-sized steel
version of the original sculpt, known as a master hub. Following a series of hand cleaning, machining,
grinding, die striking, and hand polishing procedures, this single hub was used to produce all subsequent
dies for coin striking.

These conventional methods often produced inconsistent or inaccurate hubs, dies and coins. Hubs based on
the same design could vary if produced by different engraving machines. The repetitive hand sculpting
process sometimes produced irregular backgrounds because of warping of the sculpting media. The
lengthy, manual process frequently resulted in coins appearing considerably different than the original
artistic design.

In FY 2008, the United States Mint completed a major research and development initiative to transform the
entire coin design, hub development, and die polishing process. Our goal was to develop a streamlined
digital design and die manufacturing process to take advantage of existing skills and eliminate
inconsistency.

The resulting new digital process employs computer software tools to generate two- and three-dimensional
designs on virtual paper and clay. Designs are digitally scanned, reviewed and revised electronically.
Once obverse and reverse designs are perfected, a Computer Numerically Controlled (CNC) machine uses
digitally controlled lasers to accurately reproduce the design on a single or multiple hubs. This digital
process has reduced the time required to manufacture a hub from two to three days to under 24 hours. The
precision and accuracy of digital methods have allowed us to develop more intricate and beautiful coin
designs than previously possible.


                                                     18
Automation In FY 2008, the United States Mint replaced certain production and packaging processes
with automated systems. By increasing productivity, automation is generating more efficient operations
and higher quality products.

Automated systems were installed in both San Francisco and West Point facilities to improve numismatic
product packaging in 2008. The San Francisco system employs multiple robots to rapidly package proof
coin sets. It uses a vision scanning system to identify a product, verify the correct packaging material and
inspect packaging for any errors. Based on the desired end product, the system will insert single or
multiple lenses into a single box. These finished boxes are then packed in shipping cases, and an additional
robot transfers them to pallets for immediate shipment to our distribution center.

The West Point automated system replaces a lengthy manual process for inserting encapsulated coins into
presentation case packaging. The system employs multiple robot arms that systematically disassemble
presentation case packaging, place encapsulated coins inside each case, reassemble the case packaging and
place final products into larger shipping cartons for direct transportation to our distribution center. The
system also utilizes a vision scanning system to inspect each coin, case, certificate of authenticity and
presentation packaging for any errors.

Automating these processes is expected to significantly reduce operator fatigue and injury. Automated
quality checks are also anticipated to reduce costs related to product returns and rework.

Highest Quality Standards Product quality is a top priority for the United States Mint. To produce
coins befitting the “Mint Condition” standard, we continually monitor and enhance our production
processes. Each manufacturing facility evaluates the quality of critical production materials, including
strip, blanks and packaging materials, received from various suppliers. We assess the final quality of dies
used in numismatic and circulating coin production.

Each manufacturing facility also conducts monthly product quality audits to identify the source of defects
and target continual quality improvements. For each audit, a quality review team randomly samples and
evaluates coins for visual and dimensional defects. The source of any defective coin is identified, and
corrective action is taken to prevent additional defects. For each product line, the team calculates a Mint
Quality Index (MQI), a composite score of how well coin products conform to quality standards.

A MQI score of 100 indicates that product audits found no visual or dimensional defect in the coins
examined. The score falls based on the number and severity of defects identified. Since we began
measuring circulating MQI in 2005, the average fiscal year score has trended upward. Despite a small
decline in FY 2007, circulating MQI peaked in FY 2008 with a score of 86.8. While we only began to
consistently measure numismatic MQI in 2007, our numismatic score has remained at or above 90.
Through continued process and product quality audits, we hope to maintain or surpass these scores in the
future.

In FY 2009, the United States Mint will consider implementing a state-of-the-art visual inspection system
for circulating coin production. The system would be capable of continuously scanning circulating coins
for obvious visual and dimensional defects. If effectively implemented, the system will improve our
capability to produce coins within the required quality specifications.




                                                     19
                                               Our Goals:

Optimal Workforce & Workplace Culture
The United States Mint strives to develop our workforce to ensure
that each employee has the necessary knowledge, skills, and
attributes to effectively and meaningfully contribute to our
mission. Simultaneously, we are committed to providing our employees with a fair and safe
workplace. Human capital planning has become increasingly critical to the United States Mint in recent
years because of declining employee satisfaction, the loss of key personnel to retirement and a changing
business environment. Concerted action is necessary to address these challenges and ensure we are
positioned to accomplish our mission, now and in the future.

Employee Satisfaction On a biannual basis, the United States Office of Personnel Management
administers the Federal Human Capital Survey (FHCS) to all full-time, permanent employees of the
Federal Government. The survey measures employees’ perceptions regarding how effectively their agency
manages its workforce. FHCS results are used to develop the Best Places to Work in the Federal
Government rankings. Recently, the United States Mint has performed poorly relative to other Federal
agencies. In rankings based on the 2006 FHCS, the United States Mint ranked 200 out of 222 of Federal
agencies surveyed. We ranked even lower in the subcategories of teamwork, effective leadership and
support of diversity. Declining employee satisfaction affects our overall productivity and efficiency.
Dissatisfied employees typically are less motivated, have higher absentee and accident rates and limit
themselves to fewer duties.

The United States Mint uses a quarterly Employee Pulse-Check Survey to measure employee satisfaction
with the workplace. In FY 2007, we added questions to the survey based on Best Places to Work in the
Federal Government drivers and specific FHCS questions addressing performance management, leadership
and diversity. We use the results of the Employee Pulse-Check Survey to identify opportunities for
improvement and ensure continuous focus on employee satisfaction.

FY 2008 third quarter results indicate some improvement in employee satisfaction. A majority, 72 percent,
of employees expressed satisfaction with their jobs, well above the 60 percent of employees expressing job
satisfaction in the 2006 FHCS. About 60 percent of employees reported they would recommend the United
States Mint as a good place to work, an improvement from the 55 percent of employees recommending the
agency in the 2006 FHCS. While survey results suggest some improvement, the United States Mint still
needs to develop new approaches and strategies to engage management and employees and solidify our
commitment to employee satisfaction.

A Need for Improved Leadership The 2006 FHCS indicated that our employees found significant
deficiencies in the United States Mint’s leadership. Typically, about a third of employees negatively rated
management’s performance in the areas of motivation, integrity, communication, fairness and dispute
resolution. Only about half, 53 percent, of employees reported they had trust and confidence in their
supervisor. To address these weaknesses, the United States Mint deployed the Leadership Development
Program (LDP) in FY 2008 to provide managers with the knowledge and confidence they need to more
effectively lead their employees.

The initial phase of the LDP required all supervisors, managers and executives to attend training sessions
focused on such management essentials as communication, teamwork, conflict resolution and human
resources and equal employment opportunity responsibilities. Since December 2007, 283 supervisors have
attended the LDP training. Attendees benefited from the course materials as well as the opportunity to



                                                    20
meet and interact with other managers throughout the organization. Employee Pulse Check Survey results
indicated a significant improvement in the percentage of employees reporting that their supervisor takes an
active interest in their training and development since the LDP began. Based on the program’s initial
success, the United States Mint plans to implement a three-phased LDP emphasizing interpersonal skills,
managing change, strategic thinking, and organizational development.

An Aging Workforce Nearly half of the current United States Mint workforce will be eligible for
retirement in the next five years. Loss of key personnel may affect some of the agency’s most critical
occupational categories. We are addressing these concerns through the Manufacturer Certification and
Apprenticeship Program (MCAP). The MCAP is an on-the-job training and certification program for wage
grade employees in the coin and die divisions of our Philadelphia and Denver facilities. This program is
intended to create a highly skilled and flexible manufacturing workforce.

As the MCAP progresses, all currently specialized, lower grade jobs will be combined into two higher
grade positions which incorporate all functions necessary to produce either coins or dies. For example, all
individual coining jobs, such as packaging operator, press operator and die setter, will be combined into a
single coin manufacture position. Employees advance gradually through the MCAP by completing
classroom and on-the-job training in each production skill requirement. Employees must demonstrate
proficiency in operations to achieve certification and advance to the next program level. At the top level,
employees will be qualified to perform any job in the entire coin or die production process. Those who
successfully complete the program will periodically rotate through all positions to ensure their competency
levels are maintained.

The MCAP will be monitored closely to confirm compliance with training and certification requirements.
The progress of participants will be tracked and periodic progress reports generated to comply with senior
management and United States Department of Labor (DOL) requests. Depending on its success in Denver
and Philadelphia, the MCAP may be expanded to other production facilities.

Preparing for the Future Along with efforts to enhance employee satisfaction and leadership, the
United States Mint is assessing whether we have the necessary skills and resources to achieve our mission
now and in the future. At the end of FY 2008, the United States Mint asked supervisors and managers to
identify the ten critical job-related skills needed for each occupation they oversee. Comparing current with
desired skills will indicate any gaps that should be addressed. This initial skills gap assessment will guide
training and recruiting efforts in upcoming fiscal years. Additional assessments will be conducted in future
years to evaluate our progress in closing any skill gaps.

The United States Mint also deployed the Treasury Learning Management System (TLMS) in FY 2008 to
assist managers in identifying and obtaining appropriate training for their employees. TLMS is a
comprehensive online training system which will provide employees instant access to over 2,000 online
courses. Both employees and supervisors will be able to use TLMS to develop personal training plans to
address any skills gaps as well as achieve personal training goals.

Employee Safety In FY 2008, the United States Mint struggled to maintain employee safety levels
achieved in prior years. The recordable incident rate per 100 full-time workers was 4.10, based on 71
recordable injuries and illnesses. The recordable incident rate measures the occurrence of incidents meeting
DOL Occupational Safety and Health Administration (OSHA) recordable criteria and indicates our
performance in ensuring a safe work environment for employees. FY 2008 is the third consecutive year the
rate increased. Safety efforts have become more focused on improving physical surroundings and
conditions than addressing unsafe practices which expose employees to risk of injury. Despite the overall
decline, certain facilities have maintained high safety standards. An OSHA team audited our Philadelphia
plant in FY 2008 and renewed the facility’s prestigious Voluntary Protection Programs (VPP) Star status
for five years.

The United States Mint implemented a more proactive safety improvement plan in mid-FY 2008 to
mitigate further increases in the accident rate. The plan aimed to increase focus on order and
housekeeping, foster application of best practices and address the root cause of accidents to prevent


                                                     21
recurrence. Employees were actively engaged in safety efforts, including employee driven safety
observations, daily huddles and weekly safety topic meetings. Through a concerted effort, the United
States Mint has made progress in this area. Initial efforts focused on our Denver facility. The Denver rate
dropped 36.3 percent to 8.05 in the second half of FY 2008 compared to 12.63 in the first half of the year.
Safety will remain an area of focus in FY 2009.




                                                     22
              Current and Future Challenges
A changing operating environment is posing new challenges and
opportunities for the United States Mint. Future success depends on a variety of
factors including increased collaboration with the Federal Reserve Banks (FRB); flexibility in production
of circulating coins; robust circulation of the $1 coin; and strategies for mitigating the effects of commodity
and precious metal markets.

FRB Inventory Adjustments In January 2008, the FRB began to deplete its accumulated inventory
of lower denomination circulating coins to meet demand. From September 2007 to September 2008, the
FRB reduced its monthly ending inventory of penny, nickel and dime coins by 1.1 billion pieces or 20.4
percent. This significantly reduced FRB’s need for newly minted coinage. The number of penny, nickel
and dime coins shipped to the FRB fell 34 percent from FY 2007.

The relative strength of higher denominations lessened the impact of the FRB inventory adjustment on
overall circulating revenue. Sustained demand for newly minted 50 State Quarters® Program coins
augmented quarter shipments which fell but by only seven percent from FY 2007. Shipments of $1 coins
also fell, but this was largely attributable to declining collector demand as the Presidential $1 Coin Program
entered its second year and difficulties emerged in promoting robust circulation of the coins.

The United States Mint expects circulating revenue to increase somewhat in upcoming years as low
denomination inventory levels bottom out and the United States economy emerges from the recent
slowdown. However, an additional FRB inventory adjustment is possible as the 50 State Quarters®
Program concludes in FY 2009. Prior to the program start in January 1999, the FRB increased its monthly
ending inventory of quarters 243.9 percent from 841 million in September 1998 to 2,892 million in
September 2008.

A rapid suspension of FRB orders for quarters could significantly disrupt circulating coin production. The
United States Mint plans to work with the FRB to ensure the accumulated coins are distributed over time,
minimizing any potential shock to production. The release of six quarters honoring the District of
Columbia and the United States Territories may delay the potential adjustment until FY 2010.

Higher Circulating Production Costs Dramatic increases in the prices of zinc, copper, and nickel
in recent years have driven up the cost of producing circulating coinage. From September 2004 to
September 2007, the average monthly spot price of base metals increased 164 percent for copper, 122
percent for nickel and 196 percent for zinc. While metal prices declined somewhat in FY 2008, metal
continues to make up a significant portion of overall production costs, eroding seigniorage derived from
circulating operations. Currently, both the penny and nickel cost more to produce than their face value.
Minting and issuing these coins at a loss reduces the amount of seigniorage available for the United States
Mint to transfer to the Treasury General Fund.

In 2007, the Department of the Treasury and the United States Mint, with the support of the
Administration, sent a legislative proposal to Congress that would authorize the Secretary of the
Treasury to change the composition of coins to less expensive alternative coinage materials. As a
result, the “Coinage Materials Modernization Act of 2007” (H.R. 3330 and S. 1986) was introduced.

The United States Mint continues to promote the passage of coinage materials modernization legislation.
Such legislation would provide for a flexible and transparent process to identify potential alternative
materials to be used in new coinage, research and test various materials, and thoroughly review the capital
investment, available suppliers and production line changes necessary for implementation. We believe the
public input and objective analysis required by this process is the most promising approach to achieving a
permanent solution to addressing the cost of producing the Nation’s circulating coins.



                                                      23
Promoting Robust Circulation of $1 Coins While first-year shipments of the Presidential $1
Coins to the FRB reached 674 million coins, shipments have steadily declined as the program entered its
second year and honors lesser known Presidents. Depository institutions and retailers consider the
Presidential $1 Coin more a collectible than legal tender for commerce.

The Presidential $1 Coin Act (Public Law 109-145) mandates the United States Mint to identify, analyze
and overcome barriers to the robust circulation of $1 coins. Promoting circulating usage of the coins is also
important to financial results because $1 coins generate a higher return per dollar issued than any other
denomination. Achieving steady and sustained transactional demand for $1 coins is critical to the long-
term success of the Presidential $1 Coin Program.

Volatile Precious Metal Markets Record growth and dramatic swings in the prices of gold, silver,
and platinum on commodity exchanges present unique challenges to our bullion and numismatic
operations.

The bullion markets experienced unprecedented growth through most of FY 2008 as gold and silver prices
rose to 20-year highs. Weakness in equity markets and declines in the United States dollar against most
foreign currencies drove investors to commodities as safe havens, especially gold and silver. The United
States Mint is one of the world’s largest producers of gold and silver coins. However, production capacity
and the volume of precious metal blanks our suppliers can timely provide constrain the number of bullion
products the United States Mint can produce and sell. In FY 2008, we temporarily suspended the sale of
certain bullion products because inventories were insufficient to meet record demand. We also set standard
allocation and ordering limits so that scarce products would be equitably distributed among authorized
purchasers. This has led to some customer dissatisfaction with our operations as well as misunderstanding
among the investor community and the public.

Volatile precious metal markets can create untenable price differentials between precious metal products
and the United States Mint’s numismatic products. Intended to satisfy collector rather than investor
demand, our numismatic products are made of various compositions of precious metals and are priced prior
to sale. Each product is priced based on production costs and the prevailing market price of gold, silver or
platinum. When current precious metal prices diverge significantly from the original purchase, investors
will begin purchasing numismatic coins to take advantage of the differential between the product and the
market price. In FY 2008, because of upward trends in precious metal markets, the United States Mint
temporarily suspended sale of certain numismatic products to adjust the sale price to be more in line with
the prevailing market price. Suspending sales and re-pricing products negatively affects overall sales and
customer satisfaction.

We are currently developing a new pricing model to prevent any future suspension of numismatic product
sales. The model will be transparent to our customers and match our precious metal buying strategy to
numismatic product selling patterns.




                                                     24
                                            December 3, 2008
Message from the
Chief Financial Officer:

I am pleased to present the United States Mint’s financial
statements as an integral part of the FY 2008 Annual Report. As an
organization, our priority is to report accurate financial data while objectively and steadily executing our
fiscal responsibilities to the American people. For FY 2008, our independent auditors rendered an
unqualified opinion. The United States Mint remains committed to accountability and integrity in our
financial and management responsibilities.

The United States Mint faced a challenging year in FY 2008. Shipments of circulating coins fell
significantly because of lower economic activity and adjustments in the Federal Reserve Banks’ inventory
levels. Unprecedented demand for precious metals strained our ability to procure the materials necessary to
continuously supply bullion coins. We are proud to report that, even with these challenges, the United
States Mint transferred $750 million to the Treasury General Fund as a result of our FY 2008 operations.
Strong financial management remains a key strategic focus for the United States Mint. As previously
reported, we identified one material weakness in FY 2007 resulting from the conversion of our automated
financial system from internal to third party management. This significant change required the United
States Mint to implement revised controls and reporting processes for financial reporting and inventory
management. We closed out all FY 2007 corrective actions by January 30, 2008.

To ensure no further deficiencies, the United States Mint conducted a full-scope A-123 program review
during FY 2008 for financial reporting under OMB Circular A-123 “Management’s Responsibility for
Internal Control” guidelines. Additionally, we performed a more detailed review of inventory
management. Based on the results as of June 30, 2008, the United States Mint identified a single material
weakness resulting from internal control failures related to the financial statement line item Inventory and
Related Property. Planned corrective actions and target dates were developed for each internal control
failure. We have made substantial improvements in our processes and anticipate closing out all FY 2008
corrective actions by November 15, 2008.

The United States Mint prepared its financial statements in compliance with accounting standards issued by
the Federal Accounting Standards Advisory Board (FASAB). The FASAB is designated by the American
Institute of Certified Public Accountants as the standard-setting body for the financial statements of Federal
government entities, with respect to the establishment of United States Generally Accepted Accounting
Principles.

We closed FY 2008 continuing to provide the American people high quality products and good financial
results given our current operating environment. We are committed to presenting our results in a complete
and understandable manner to our stakeholders, the American public. We hope you find the new annual
report format useful and transparent. We look forward to maintaining our 216 year-old tradition of service
to the American public and our collectors in FY 2009.


Sincerely,



Patricia M. Greiner
Chief Financial Officer



                                                      25
                                        2008 Operating Results:

                                      Circulating
Circulating Coinage
The primary mission of the United States Mint is to enable commerce by minting and issuing circulating
coinage to meet the needs of the United States. Coins are shipped to the Federal Reserve Banks (FRB) as
needed to replenish inventory and fulfill commercial demand. Revenue from the sale of circulating coins is
recognized when coins are shipped to the FRB.

Earned revenue from circulating coinage equals the gross costs (metal, manufacturing, and transportation)
incurred to make and distribute the coins. Seigniorage represents the difference between the cost to make
the coin and the face value received from the FRB. Seigniorage is considered an “other financing source”
in the financial statements. It adds to the Federal Government’s cash balance, but unlike the payment of
taxes or other receipts, seigniorage does not involve a transfer of financial assets from the public. Instead,
it arises from the exercise of the Federal Government’s sovereign power to create money and the public’s
desire to hold financial assets in the form of coins. The President’s Budget excludes seigniorage from
receipts and treats it as a means of financing the national debt.

Circulating Shipments & Seigniorage
Total circulating coins shipped to the FRB decreased nearly 28.9 percent from 14,021 million pieces in FY
2007 to 9,974 million pieces in FY 2008. The total dollar value of circulating shipments to the FRB
decreased to $1,294.5 million from $1,727.8 million last year.

The slowing economy was the main reason for declining circulating shipments in FY 2008. Demand for
circulating coins fell as retail activity weakened. Compounding the impact of the economic slowdown, in
January 2008, the FRB began drawing down inventory levels system-wide. By using inventory of lower
denominations to meet transactional demand, the FRB largely reduced its need for newly minted coins.

Shipments of higher denominations fell to a lesser extent because of continued collector interest in rotating
coin designs. The relative strength of higher denominations boosted the total dollar value of shipments in
FY 2008. While the total quantity of coins shipped was cut in half from past fiscal years, higher
denominations made up a growing portion of total coins shipped. Consequently, the value of shipments did
not fall as significantly and remained consistent with fiscal years prior to FY 2007.

Weakened demand reduced both the gross cost and seigniorage from circulating operations. While
circulating gross costs fell to $588.3 million from $722.6 million in FY 2007, gross costs made up a larger
proportion of the overall face value of coins shipped. Seigniorage decreased nearly 29.7 percent to $706.2
million from $1,005.2 million last year. Lower production volumes and higher dollar coin production costs
offset the benefit of lower base metal prices on per-unit costs and resulted in lower seigniorage per dollar
issued in FY 2008. Seigniorage per dollar issued fell slightly to $0.55 in FY 2008 from $0.58 in FY 2007.

Shipments by Denomination
Reduced demand for newly minted circulating coins was most evident for lower denominations. Shipments
of penny, nickel and dime coins fell 25.6 percent, 49.8 percent and 52.4 percent, respectively, from FY
2007. Continued demand for newly minted 50 State Quarters® Program coins augmented shipments of
quarter-dollar coins which fell by only 7.4 percent from FY 2007. While shipments of $1 coins decreased
31.2 percent, this was largely attributable to declining collector demand as the Presidential $1 Coin
Program entered its second year and difficulties continued with promoting robust circulation of the coins.

The significant decline in shipments of lower denominations resulted from both the economic slowdown
and adjustments the FRB made to inventory levels. Compared with the FRB monthly ending inventory in
September 2007, the FRB stock of pennies fell 19.8 percent. The inventory of nickels declined 13.0
percent, and the stock of dimes fell 25.1 percent. In contrast, the FRB monthly ending inventory of
quarters increased 34.4 percent and the stock of $1 coins grew 80.0 percent over the same period.



                                                      26
Circulating Coinage Costs
Steady increases in the prices of copper, nickel and zinc have driven up the cost of producing circulating
coinage over the last few years. The average daily spot price for the month of September increased 164.2
percent for copper, 122.5 percent for nickel and 195.5 percent for zinc between 2004 and 2007. Over that
time, metal made up a growing portion of overall production costs and reduced the seigniorage generated
from circulating operations. In FY 2008, however, the market price of nickel and zinc fell from FY 2007
peaks. The price of copper began to decline at the close of the fiscal year. The average daily spot price for
the month of September decreased 8.6 percent for copper, 39.8 percent for nickel and 39.8 percent for zinc
between 2007 and 2008.

Despite the recent decline in base metal prices, gross cost actually increased relative to the overall face
value of coins shipped. Various factors offset the benefit of lower metal prices and resulted in lower
seigniorage per dollar issued in FY 2008. When production volumes decline because of lower demand,
fixed production costs are spread over fewer units. This offsets any per-unit gains from lower base metal
costs. For example, the per-unit metal cost of a nickel fell about $0.0154 from $0.0815 in FY 2007 to
$0.0661 in FY 2008. However, the per-unit fixed production costs increased $0.0082, resulting in only a
small decline in the nickel overall unit cost. Similarly, the penny unit cost fell slightly from FY 2007
because higher per-unit vendor fabrication costs offset lower per-unit metal costs. The unit costs for dime
and quarter denominations increased in FY 2008 because of higher per-unit fixed production costs.

While declining from last year, the unit cost for penny and nickel denominations remained above face value
for the third consecutive fiscal year. Lower demand did reduce the overall loss the United States Mint
incurred from producing these denominations. Penny and nickel coins were produced at a loss of $47.0
million, down from the FY 2007 loss of about $98.6 million.

Gross cost also increased relative to the value of shipments from last year because of higher $1 coin metal
costs. The United States Mint maintained an inventory of excess $1 coin strip since the initial Sacagawea
Golden Dollar coin production in calendar years 2000 and 2001. This strip, purchased at a cost much lower
than FY 2007 prices, was used to produce the initial Presidential $1 Coin release. Because the value of
metal inventory is not reported as cost of goods sold (COGS) until coins are shipped to the FRB, the cost to
produce coins with the older strip was lower than what it would have been had new strip been purchased at
prevailing prices. FY 2008 was the first year new strip had to be acquired for all $1 coin production. This
increased the per-unit metal costs by about $0.0384 from $0.0281 in FY 2007 to $0.0665 in FY 2008.
Higher metal cost, combined with higher fixed production costs, increased the overall $1 coin unit costs
67.9 percent from $0.1573 in FY 2007 to $0.2641 in FY 2008.


Circulating (Dollars in millions except Seigniorage per $1 Issued)
                                                                                                % Change
                               2008         2007         2006        2005        2004
                                                                                               2007 to 2008
Value of Shipments            $ 1,294.5 $ 1,727.8 $ 1,271.9 $ 1,144.8 $              993.5               (25.1%)

Gross Cost                    $    588.3 $ 722.6 $ 603.4 $               445.4 $     395.8               (18.6%)

    Cost of Goods Sold        $    491.3 $ 629.1 $ 508.8 $               359.5 $     306.9               (21.9%)

    SG&A                      $     97.0 $       93.5 $         94.6 $      85.9 $      88.9                  3.7%

Seigniorage                   $    706.2 $ 1,005.2 $ 668.5 $             699.4 $     597.7               (29.7%)

Seigniorage per $1 Issued $         0.55 $       0.58 $         0.53 $      0.61 $      0.60




                                                           27
FY 2008 Shipments to Federal Reserve Banks, Cost and Seigniorage by Denomination
(Coins and dollars in millions except seigniorage per $1 issued)
                                                                                Quarter-                              Mutilated
                                  One-Cent Five-Cent                   Dime              Half-Dollar       $1                         Total
                                                                                 Dollar                               & Other

Coins Shipped to the FRB                5,272           647             1,070       2,510        —          475              —        9,974

Dollar Value of Shipments           $    52.7     $    32.3        $ 107.1      $ 627.6     $    —     $ 474.8         $     —    $1,294.5

Gross Cost                          $    74.9     $    57.1        $     46.6   $ 273.5     $    —     $ 125.4         $   10.8   $ 588.3

    Cost of Goods Sold              $    74.7     $    57.1        $     40.3   $ 235.2     $    —     $    73.2       $   10.8   $ 491.3

    SG&A                            $     0.2     $       —        $      6.3   $   38.3    $    —     $    52.2       $     —    $    97.0

Seigniorage                         $ (22.2)      $ (24.8)         $     60.5   $ 354.1     $    —     $ 349.4         $ (10.8)   $ 706.2

Seigniorage per $1 Issued           $ (0.42)      $ (0.77)         $     0.56   $   0.56    $    —     $    0.74       $     —    $    0.55

FY 2007 Shipments to Federal Reserve Banks, Cost and Seigniorage by Denomination
(Coins and dollars in millions except seigniorage per $1 issued)
                                                                                Quarter-                              Mutilated
                                  One-Cent Five-Cent                   Dime              Half-Dollar       $1                         Total
                                                                                 Dollar                               & Other

Coins Shipped to the FRB                7,084         1,289             2,247       2,711        —              690         —          14,021

Dollar Value of Shipments           $    78.1     $    64.4        $ 224.8      $ 677.8     $    —     $ 682.7        $     —     $ 1,727.8

Gross Cost                          $ 118.2       $ 122.9          $     92.1   $ 265.3     $    —     $ 108.5        $    15.6   $     722.6

    Cost of Goods Sold              $ 118.2       $ 122.9          $     81.2   $ 231.3     $    —     $    59.9      $    15.6   $     629.1

    SG&A                            $     —       $      —         $     10.9   $   34.0    $    —     $    48.6      $     —     $      93.5

Seigniorage                         $ (40.1)      $ (58.5)         $ 132.7      $ 412.5     $    —     $ 574.2        $ (15.6)    $ 1,005.2

Seigniorage per $1 Issued           $ (0.51)      $ (0.91)         $     0.59   $   0.61    $    —     $    0.84      $     —     $     0.58

FY 2006 Shipments to Federal Reserve Banks, Cost and Seigniorage by Denomination
(Coins and dollars in millions except seigniorage per $1 issued)
                                                                                Quarter-                              Mutilated
                                  One-Cent Five-Cent                   Dime              Half-Dollar       $1                         Total
                                                                                 Dollar                               & Other

Shipments to the FRB                    8,553         1,461             3,023       3,007          2             60         —         16,106

Dollar Value of Shipments          $     85.0     $    72.6        $ 301.9      $ 751.1     $    1.0   $    60.3      $     —     $ 1,271.9

Gross Cost                         $ 103.3        $    87.2        $ 114.4      $ 272.7     $    0.4   $        9.7   $    15.7   $    603.4

    Cost of Goods Sold             $ 103.3        $    87.1        $     89.9   $ 209.4     $    0.4   $        3.0   $    15.7   $    508.8

    SG&A                           $      —       $     0.1        $     24.5   $   63.3    $    —     $        6.7   $     —     $      94.6

Seigniorage                        $ (18.3)       $ (14.6)         $ 187.5      $ 478.4     $    0.6   $    50.6      $ (15.7)    $    668.5

Seigniorage per $1 Issued          $ (0.22)       $ (0.20)         $     0.62   $   0.64    $   0.60   $    0.84      $     —     $     0.53




                                                                        28
Unit Cost of Producing and Distributing Coins by Denomination
                                                                          Quarter-
                                 One-Cent      Five-Cent        Dime                   Half-Dollar       $1
FY 2008                                                                    Dollar

Cost of Goods Sold              $    0.0139   $    0.0877   $    0.0371   $   0.0925   $      —      $   0.1517

SG&A                            $       —     $      —      $    0.0059   $   0.0153   $      —      $   0.1098

Distribution to FRB             $    0.0003   $    0.0006   $    0.0006   $   0.0012   $      —      $   0.0026

Total Expenses                  $    0.0142   $    0.0883   $    0.0436   $   0.1090   $      —      $   0.2641

                                                                          Quarter-
                                 One-Cent      Five-Cent        Dime                   Half-Dollar       $1
FY 2007                                                                    Dollar

Cost of Goods Sold              $    0.0165   $    0.0949   $    0.0357   $   0.0841   $      —      $   0.0835

SG&A                            $       —     $      —      $    0.0048   $   0.0125   $      —      $   0.0705

Distribution to FRB             $    0.0002   $    0.0004   $    0.0004   $   0.0012   $      —      $   0.0033

Total Expenses                  $    0.0167   $    0.0953   $    0.0409   $   0.0978   $      —      $   0.1573

                                                                          Quarter-
                                 One-Cent      Five-Cent        Dime                   Half-Dollar       $1
FY 2006                                                                    Dollar

Cost of Goods Sold               $   0.0119   $    0.0592   $    0.0294   $   0.0681   $   0.1729    $   0.0495

SG&A                             $      —     $    0.0001   $    0.0081   $   0.0211   $      —      $   0.1092

Distribution to FRB              $   0.0002   $    0.0004   $    0.0003   $   0.0015   $   0.0020    $   0.0008

Total Expenses                   $   0.0121   $    0.0597   $    0.0378   $   0.0907   $   0.1749    $   0.1595




                                                   29
                                       2008 Operating Results:

                                    Numismatic
Numismatic Products
The United States Mint prepares and distributes a variety of numismatic products directly to the public.
For some numismatic products, authorizing legislation specifies program requirements, such as design
theme, mintage level and the duration of product availability. Other programs are structured by law to
grant the Secretary of the Treasury discretion in determining product specifications. The value of sales of
numismatic products is considered earned revenue in the financial statements. The net return from
numismatic operations is calculated by subtracting the program’s gross costs from sales revenue. A main
objective of numismatic operations is to keep the sale price of products as low as practicable for customers.
The program is managed to a 15 percent net margin overall to ensure sale prices are as low as practicable
and returns are sufficient to fund numismatic operating costs.

The United States Mint sells certain circulating coins through numismatic channels. Earned revenue (gross
costs) from numismatic sales of circulating coins is recognized in the same way as circulating sales to the
FRB. Seigniorage from the numismatic sale of circulating coins is not available to the United States Mint
as spending authority, but is transferred to the Treasury General Fund as off-budget receipts.

Sales Revenue, Net Income & Seigniorage
In FY 2008, numismatic sales revenue plus earned revenue from the sale of circulating coins increased
slightly to $557.2 million from $551.5 million last year. The enactment of legislation authorizing the 50
State Quarters®, Presidential $1 Coin and First Spouse Gold Bullion Coin Programs has allow the United
States Mint to expand product lines and attract new customers in recent years. Strong sales of recurring
program products drove most of the steady state growth in FY 2008.

Numismatics gross costs fell slightly to $474.8 million from $475.6 million in FY 2007 because rising
sales, general and administrative (SG&A) expenses were offset by declining COGS. As circulating
revenue decreased, numismatic program revenue made up a larger portion of the United States Mint total
revenue in FY 2008. Consequently, a larger portion of the United States Mint total SG&A cost was
allocated to the numismatic program. SG&A expenses grew 9.9 percent from FY 2007, but the increase
was offset by a 2.2 percent decline in COGS.

Net income and seigniorage increased 8.6 percent to $82.4 million in FY 2008 from $75.9 million last year.
A higher net return from the sale of American Buffalo and Recurring Products accounted for most of the
overall increase. The numismatic program was managed to just below the standard net margin of 15
percent. The numismatic net margin increased to 14.8 percent in FY 2008 from 13.8 percent in FY 2007.

Results by Product Program
American Eagle Program American Eagle gold, silver and platinum coins are offered in proof and
uncirculated quality as part of the numismatic program. Revenue from the sale of American Eagle products
fell 24.6 percent to $166.0 million in FY 2008 from $220.1 million in FY 2007. American Eagle Program
revenue peaked in FY 2007 because of high overall demand for precious metals as well as the release of
new uncirculated products. As precious metal market prices increased, sales were augmented by certain
customers purchasing American Eagle products, traditionally intended for coin collectors, for investment
purposes. While precious metal market prices continued to increase for most of FY 2008, revenue from the
sale of American Eagle products declined. The United States Mint had to suspend the sale of certain
products in FY 2008, which limited American Eagle program revenue. The sale of American Eagle
platinum proof and uncirculated products was suspended multiple times in FY 2008 to allow for re-pricing.
Through the fiscal year, the market price of platinum steadily increased, held around $2,000 per troy ounce,
and declined back to FY 2007 levels. Sales suspensions were necessary to adjust platinum product prices
and prevent prices from diverging significantly from the variable market price. Declining sales of top
revenue generating products, especially the American Eagle gold proof and uncirculated four-coin set, also
reduced the program’s total revenue. Total net unit sales of these two sets alone decreased 59.7 percent in
FY 2008, and sales revenue from the sets was down $31.3 million from last year. Despite declining sales



                                                     30
of many products, American Eagle program net income fell only slightly from $29.6 million in FY 2007 to
$28.6 million in FY 2008 as COGS made up a smaller portion of revenue.

American Buffalo Program Initial demand for the first American Buffalo product, the 24-karat gold
proof coin, generated significant sales revenue in FY 2006. Revenue declined in the program’s second year
but increased somewhat in FY 2008 as sales of new products offset declining demand for the original gold
proof coin. The United States Mint introduced several new products in the 24-karat gold American Buffalo
product line in FY 2008. The American Buffalo 2008 Celebration Coin, a 24-karat one-ounce gold coin,
was introduced in February. Fractional half-ounce, quarter-ounce and tenth-ounce weights of American
Buffalo Gold Proof and Uncirculated Coins were introduced in July. New product sales contributed to a
31.6 percent increase in American Buffalo Program revenue from $59.9 million in FY 2007 to $78.8
million in FY 2008. Net income increased to $7.5 million from $5.6 million last year.

Commemorative Coin Programs Revenue from the sale of commemorative coins, less surcharges paid to
recipient organizations, fell to $37.3 million in FY 2008 from $45.6 million in FY 2007. Only one
commemorative product, authorized by Congress, was introduced in January 2008. The Bald Eagle
Commemorative Coin Program generated $32.1 million in revenue and $6.9 million in surcharges for the
recipient organization. FY 2008 figures also include results from the sale of the Little Rock Central High
School Commemorative Coin and the Jamestown 400th Anniversary Commemorative Coin, released in
calendar year 2007.

Recurring Programs Recurring programs include high quality, specially presented products based on the
Nation’s circulating coinage. These products include Proof Sets, Uncirculated Sets, Quarters Sets, and
Presidential $1 Coin Sets. Revenue from recurring programs increased 29.3 percent to $245.5 million in
FY 2008 from $189.8 million in FY 2007. Higher sales of 2007 and 2008 Proof and Uncirculated Sets
augmented FY 2008 revenue. Sales of new Presidential $1 Coin and Annual Dollar Coin Uncirculated
Sets, released at the end of the 2007 calendar year, also boosted recurring revenue. Net income increased
133.7 percent from $8.3 million in FY 2007 to $19.4 million in FY 2008.

Numismatic Sales of Circulating Coinage Introduction of the 50 State Quarters® and Presidential $1
Coin Programs increased collector demand for newly minted circulating coins. The United States Mint
typically sells circulating coins in bags and rolls directly to the public. Sales revenue equals the face value
of the coins sold. Any additional revenue above the face value or production costs (whichever is higher)
and any additional expenses incurred are included in recurring programs results. The total face value from
the sale of circulating coinage fell 18.0 percent to $29.6 million in FY 2008 from $36.1 million in FY 2007.
Seigniorage decreased to $22.5 million in FY 2008 from $27.1 million last year.


Numismatic (Dollars in millions)
                                                                                                               % Change
                                       2008           2007           2006           2005           2004
                                                                                                              2007 to 2008

Sales Revenue                      $    557.2     $    551.5     $    514.9     $    355.4     $    341.2              1.0%

Gross Cost                         $    474.8     $    475.6     $    427.7     $    258.9     $    253.3            (0.2%)

   Cost of Goods Sold              $    388.1     $    396.7     $    346.2     $    180.1     $    180.2            (2.2%)

   SG&A                            $     86.7     $     78.9     $     81.5     $     78.8     $     73.1              9.9%

Net Income & Seigniorage           $     82.4     $     75.9     $     87.2     $     96.5     $     87.9              8.6%
Numismatic Net Margin                     14.8%          13.8%          16.9%          27.2%          25.8%
Seigniorage Portion                $     22.5     $     27.1     $     13.9     $     23.3     $     46.4           (17.0%)




                                                         31
FY 2008 Numismatic Revenue, Cost and Net Income or Seigniorage by Program (Dollars in millions)
                                                                                         Numismatic
                             American       American
                                                          Commemoratives    Recurring      Sale of             Total
                              Eagle          Buffalo                                     Circulating

Sales Revenue                $    166.0     $     78.8     $       37.3     $ 245.5      $        29.6     $ 557.2

Gross Cost                   $    137.4     $     71.3     $       32.9     $ 226.1      $         7.1     $ 474.8

 Cost of Goods Sold          $    117.1     $     64.8     $       27.6     $ 174.8      $         3.8     $ 388.1

 SG&A                        $     20.3     $      6.5     $         5.3    $    51.3    $         3.3     $ 86.7

Net Income/Seigniorage       $     28.6     $      7.5     $         4.4    $    19.4    $        22.5     $ 82.4

Numismatic Net Margin              17.2%           9.5%             11.8%         7.9%             76.0%         14.8%


FY 2007 Numismatic Revenue, Cost and Net Income or Seigniorage by Program (Dollars in millions)
                                                                                         Numismatic
                             American       American
                                                          Commemoratives    Recurring      Sale of             Total
                              Eagle          Buffalo                                     Circulating

Sales Revenue                $    220.1     $     59.9     $       45.6     $ 189.8      $        36.1     $ 551.5

Gross Cost                   $    190.5     $     54.3     $       40.3     $ 181.5      $         9.0     $ 475.6

 Cost of Goods Sold          $    171.0     $     50.3     $       35.8     $ 134.6      $         5.0     $ 396.7

 SG&A                        $     19.5     $      4.0     $         4.5    $    46.9    $         4.0     $ 78.9

Net Income/Seigniorage       $     29.6     $      5.6     $         5.3    $     8.3    $        27.1     $ 75.9

Numismatic Net Margin              13.4%           9.3%             11.6%         4.4%             75.1%         13.8%

FY 2006 Numismatic Revenue, Cost and Net Income or Seigniorage by Program (Dollars in millions)
                                                                                      Numismatic
                          American      American
                                                    Commemoratives Recurring               Sale of             Total
                            Eagle         Buffalo                                     Circulating

Sales Revenue                $    117.5     $    166.7     $       24.9     $ 181.4      $        24.4     $ 514.9

Gross Cost                   $    100.0     $    150.8     $       20.1     $ 146.3      $        10.5     $ 427.7

 Cost of Goods Sold          $     84.3     $    137.3     $       14.7     $ 101.5      $         8.4     $ 346.2

 SG&A                        $     15.7     $     13.5     $         5.4    $    44.8    $         2.1     $     81.5

Net Income/Seigniorage       $     17.5     $     15.9     $         4.8    $    35.1    $        13.9     $     87.2

Numismatic Net Margin              14.9%           9.5%             19.3%        19.3%            57.0%          16.9%




                                                    32
                                       2008 Operating Results:

                                           Bullion
Bullion Products
The United States Mint manufactures and issues gold, silver and platinum bullion coins through American
Eagle Bullion Coin and American Buffalo Bullion Coin Programs. These coins are typically purchased by
investors seeking a simple, tangible means of owning precious metals. The United States Mint sells bullion
coins to authorized purchasers, which include precious metal and coin dealers, brokerage companies and
participating banks. Authorized purchasers agree to maintain an open, two-way market for these coins,
assuring their liquidity. This ensures that the public can purchase coins from and sell coins to authorized
purchasers at the prevailing market price, adjusting for any premium the authorized purchaser applies.

The United States Mint purchases precious metal on the open market at the time of an order. Coins are sold
to authorized purchasers at the same market price paid for the metal plus a premium to cover bullion
program operating costs. The purpose of the bullion programs is to make precious metal coins available at
minimal cost to investors. Consequently, the program is managed to nominal net margin.

Bullion Sales Revenue & Net Income
The bullion markets experienced unprecedented growth through most of FY 2008 with gold and silver
prices reaching 20-year highs. As the value of metals increased, soaring demand for United States Mint
bullion products generated record sales revenue. Total bullion revenue increased 166.4 percent from
$356.1 million in FY 2007 to $948.8 million in FY 2008. From last year, the United States Mint sold 200.0
percent and 122.8 percent more ounces of gold and silver bullion coins, respectively. Efficient use of
production capacity allowed the United States Mint to achieve such unprecedented production volumes
without incurring additional operating costs.

While gross cost increased 164.8 percent from FY 2007 as market prices peaked, COGS made up a smaller
portion of total sales revenue. As with the numismatic program, bullion program revenue made up a larger
portion of the United States Mint total revenue in FY 2008. Consequently, a greater portion of general and
administrative expense was allocated to the bullion program. SG&A cost did increase significantly from
FY 2007, but made up only a small portion of total gross cost.

Net income rose to $17.8 million in FY 2008 from $4.5 million in FY 2007. The bullion program was
successfully managed to just below the standard net margin of 2 percent.

Results by Product Program
Sales of American Eagle gold and silver bullion products drove most of the revenue growth in FY 2008.
American Eagle 22-karat gold bullion sales revenue increased 307.6 percent to $449.6 million from $110.3
million in FY 2007. American Eagle silver bullion sales revenue rose 178.0 percent to $306.4 million from
$110.2 million last year. Revenue from the sales of these two products alone made up 79.7 percent of total
bullion sales revenue in FY 2008. Net income from both American Eagle gold and silver bullion coins
increased in FY 2008 as COGS made up a smaller portion of revenue. American Eagle gold net income
increased from $1.2 million in FY 2007 to $10.2 million in FY 2008. American Eagle silver net income
rose to $5.0 from $1.2 million last year.

Sales of American Buffalo 24-karat gold and American Eagle platinum bullion coins increased in FY 2008,
but not to the same extent as the American Eagle gold and silver coins. American Buffalo 24-karat gold
bullion sales revenue increased 45.0 percent to $170.4 million from $117.5 million in FY 2007. American
Buffalo gold net income remained at $1.7 million. American Eagle platinum sales increased 23.8 percent
to $22.4 million from $18.1 million in FY 2007. Net income for American Eagle platinum coins grew from
$0.4 million to $0.9 million.

Precious Metal Markets & Supply Constraints
The bullion markets experienced unprecedented growth through most of FY 2008. The average daily spot
price for the month of September increased 104.8 percent for gold, 93.7 percent for silver and 44.3 percent



                                                    33
for platinum between 2004 and 2008. Daily spot prices appeared to have peaked in the middle of FY 2008.
However, concerns over the stability of financial markets at the close of FY 2008 drove investors back to
commodities, especially gold, as potential safe havens.

Production capacity and the volume of precious metal blanks our suppliers can timely provide limit the
number of bullion products the United States Mint can produce and sell. In FY 2008, the United States
Mint temporarily suspended the sale of certain bullion products because inventories were insufficient to
meet unprecedented demand. American Eagle silver bullion sales were initially suspended in February
2008. Sales resumed at the beginning of March but were quickly suspended again. To ensure equitable
distribution of available inventory, the United States Mint initiated an allocation program for American
Eagle silver bullion in April 2008. The United States Mint suspended sales of American Eagle gold bullion
in August 2008, but sales were quickly resumed under a similar allocation program. Sales of the American
Buffalo gold coin were also temporarily halted at the end of August 2008. The United States Mint resumed
sales under an allocation program at the start of FY 2009.


Bullion (Dollars in millions)
                                                                                                                                  % Change
                                      2008                 2007              2006                2005              2004
                                                                                                                                 2007 to 2008

Sales Revenue                     $      948.8         $    356.1        $       536.6      $     270.7        $     315.7               166.4%

Gross Cost                        $      931.0         $    351.6        $       524.4      $     265.2        $     313.1               164.8%

   Cost of Goods Sold             $      922.6         $    350.0        $       523.0      $     264.4        $     312.5               163.6%

   SG&A                           $          8.4       $          1.6    $          1.4     $           0.8    $          0.6            425.0%

Net Income                        $       17.8         $          4.5    $        12.2      $           5.5    $          2.6            295.6%

Bullion Net Margin                           1.9%                 1.3%              2.3%                2.0%              0.8%



FY 2008 Bullion Revenue, Cost and Net Income by Program (Dollar in millions)
                        American Eagle American Eagle American Eagle American Buffalo
                                                                                                                                      Total
                            Gold          Silver        Platinum          Gold
Sales Revenue              $     449.6             $        306.4            $            22.4          $          170.4          $      948.8

Gross Cost                 $     439.4             $        301.4            $            21.5          $          168.7          $      931.0

 Cost of Goods Sold        $     435.3             $        299.3            $            21.2          $          166.8          $      922.6

 SG&A                      $       4.1             $          2.1            $             0.3          $            1.9          $           8.4

Net Income                 $      10.2             $          5.0            $             0.9          $            1.7          $       17.8

Bullion Net Margin                    2.3%                        1.6%                     4.0%                        1.0%                   1.9%




                                                             34
FY 2007 Bullion Revenue, Cost and Earnings by Program (Dollar in millions)
                      American Eagle American Eagle American Eagle American Buffalo
                                                                                                       Total
                          Gold          Silver        Platinum          Gold
Sales Revenue            $       110.3       $      110.2       $        18.1       $   117.5      $      356.1

Gross Cost               $       109.1       $      109.0       $        17.7       $   115.8      $      351.6

 Cost of Goods Sold      $       108.7       $      108.6       $        17.5       $   115.2      $      350.0

 SG&A                    $         0.4       $         0.4      $            0.2    $     0.6      $           1.6

Net Income               $         1.2       $         1.2      $            0.4    $     1.7      $           4.5

Bullion Net Margin                  1.1%                1.1%                 2.2%           1.4%               1.3%

FY 2006 Bullion Revenue, Cost and Earnings by Program (Dollar in millions)
                      American Eagle American Eagle American Eagle American Buffalo
                                                                                                       Total
                          Gold          Silver        Platinum          Gold
Sales Revenue            $       222.9       $      130.5       $        15.4       $   167.8      $      536.6

Gross Cost               $       217.7       $      127.1       $        14.8       $   164.8      $      524.4

 Cost of Goods Sold      $       217.1       $      126.9       $        14.7       $   164.3      $      523.0

 SG&A                    $         0.6       $         0.2      $            0.1    $     0.5      $           1.4

Net Income               $         5.2       $         3.4      $            0.6    $     3.0      $       12.2

Bullion Net Margin                  2.3%                2.6%                 3.9%           1.8%               2.3%




                                                      35
                         Transfer to the
                     Treasury General Fund
As required by Public Law 104-52, the United States Mint transfers all revenue not required for current and
anticipated operations to the Treasury General Fund, retaining only the amount required by the Public
Enterprise Fund (PEF) to support United States Mint operations and programs.

In FY 2008, the United States Mint transferred a total of $750 million to the Treasury General Fund. This
total included $735 million transferred off-budget and $15 million transferred on-budget. The off-budget
transfer contains seigniorage, the financing source resulting from the sale of circulating coins. The on-
budget transfer represents FY 2007 numismatic profits transferred to the Treasury General Fund in FY
2008. In comparison, the United States Mint transferred $782 million off-budget, and $43 million on-
budget, for a total transfer of $825 million during FY 2007. Prior year retained earnings and current year
financing sources were sufficient to cover existing obligations and liabilities of the PEF.




                                                    36
    Performance Goals, Objectives and
                Results
Overview As mandated by the Government Performance & Results Act (GPRA) of 1993, agencies are to
identify critical activities, devise pertinent performance measures, and report on these activities to the
President and Congress.

In FY 2008, the United States Mint developed new strategic goals focused on brand identity, product
portfolio, artistic excellence, improving efficiency, and developing an optimal workforce and workplace.
Performance measures indicating our progress in achieving each of these goals were presented earlier in
this report. To assess our performance on primary budget activities, the United States Mint monitors three
key performance measures.

Conversion Cost per 1,000 Coin Equivalents The United States Mint’s costs vary by the
volume and mix of products sold each year. This makes it difficult to compare operating results from year
to year. A coin equivalent (CE) calculation is used to convert production output to a common denominator
based on a fixed product cost ratio. Total production costs, excluding metal and fabrication, are then
divided by this standardized production level to obtain the conversion costs per 1,000 coin equivalents.
Standardized output allows comparison of performance over time by negating the effect of varying product
volume and mix on cost. In FY 2008, the target for this measure was redefined as a percentage from a
baseline. Essentially, the baseline is an estimate of the expected total conversion cost for the volume of
CEs produced based on historic cost and CE data. The dollar value of the baseline for a year’s expected
conversion costs is dependent on the actual volume of CEs produced.

In FY 2008, the conversion cost was $8.46 per 1000 CEs, 11.0 percent above the baseline of $7.62 . CE
production decreased to 21.3 billion in FY 2008 from 24.0 billion in FY 2007, due to significantly lower
Federal Reserve Banks (FRB) orders for circulating coins. The United States Mint was unable to
significantly reduce conversion costs in FY 2008 because of sustained fixed costs and rising energy and
fuel costs. As production volumes declined, these costs were spread over fewer CEs, resulting in a higher
overall cost per 1000 CEs.

The United States Mint plans to focus on improving overall efficiency in FY 2009 by reducing machine
downtime and the volume of scrap. Efficiency gains are expected to reduce conversion cost in future years.

Protection Cost per Square Foot Protection cost per square foot is calculated as the Office of
Protection’s total operating cost divided by the area of usable space of the United States Mint. Protection’s
total operating costs excludes depreciation expense because it is a non-cash outlay. Usable space is defined
as 90 percent of total square footage. The measure indicates the Office of Protection’s efficiency in
safeguarding United States Mint facilities, employees and assets. Total square footage of usable space is
relatively constant and only changes with major events such as the addition or removal of a facility. There
was no change to total square footage of usable space in FY 2008.

Protection cost per square foot was $31.76 in FY 2008, below the target of $32.50. The United States Mint
is restating the FY 2007 results, originally reported as $31.75. The restated figure of $31.29 excludes
depreciation expense. Figures for FY 2004 through FY 2006 exclude depreciation expense and are not
restated. While FY 2008 Protection cost per square foot remained below the target, it increased from FY
2007. Contracted services expense increased by 52 percent in FY 2008 due to a one-time charge for a prior
year research and development project not fully capitalized and an increase in charges from other federal
agencies. Replenishing firearm and emergency supplies increased supply costs by 43 percent from last
year. The Office of Protection did reduce expenses for overtime and travel in FY 2008 compared to FY
2007.




                                                     37
The United States Mint Office of Protection will continue efforts to contain costs, while fulfilling
protection responsibilities. Projects to automate entry and exit at facilities are expected to reduce the costs
associated with these functions.

Total Losses The United States Mint performs its protection function by minimizing vulnerability to
theft and preventing unauthorized access to critical assets. Total losses measure the dollar amount of losses
incurred because of the realization of threats to the United States Mint. Total losses are classified in three
categories based on cases that have been investigated and closed:
• Financial Losses: intentional monetary losses, thefts or fraud from metal reserves, produced coinage,
   retail sales and other administrative losses.
• Cost of Intrusions: the cost of repair or recovery from an intentional intrusion into United States Mint
   systems and facilities either electronically or physically.
• Productivity Losses: the cost of intentional damage or destruction to production capabilities, including
   related costs for continuity of operations.

As defined, total losses do not include losses incurred during the normal course of sales operations. Such
losses are reported in the financial statements as cost of goods sold.

The United States Mint initiated a review of the total losses measure in FY 2008. Results of this review
suggest that the definition of total losses does not capture information that is useful as a measure of
performance. The majority of cases are referred to the Treasury Inspector General. Associated losses
remain potential and are not reported in the total losses measure. As of September 30, 2008, 30 cases with
potential losses totaling $456,040.75 were referred for investigation. The following number of cases and
associated potential dollar amounts were referred in prior fiscal years. Cases were largely classified as
potential financial losses related to the sale of numismatic products to the public.
Cases Referred to the Office of the Inspector General
Fiscal Year        Number of cases         Potential Amount
    2004                   36                 $ 286,427.35
    2005                   12                 $ 132,515.65
    2006                    6                 $   17,712.65
    2007                    0                 $         0.00
    2008                   30                 $ 456,040.75

The measure has been defined as cases that are investigated and closed, with the result recorded in the
fiscal year in which the case was closed. Cases that are investigated and closed internally by the Office of
Protection relate more to production quality control and damage to administrative resources than realized
threats to the United States Mint’s assets. Last year we reported that the results were unavailable at the
time of publication of the FY 2007 Annual Report pending our review of the measure. The review found
that FY 2007 losses from closed cases were $223, below the target of $10,000. No losses are reported for
FY 2008 because no cases were closed with unrecovered losses during the fiscal year. No cases have been
opened because of intrusions or productivity losses in the past five fiscal years. The review has identified
shortcomings in the use of total losses as a performance measure. To be useful to management, a
performance measure should present timely information. The United States Mint will discontinue the use
of the total losses measure but continue to review information on investigations and potential financial loss
cases to ensure proper procedures and internal controls policies are in place.

                                                               FY 2008    FY 2008
                                                                                    FY 2007   FY 2006   FY 2005   FY 2004
Budget Performance Measures                                     Result     Target
Conversion Cost per 1,000 Coin Equivalents                        11.0%       0.0% $    7.23 $   7.55 $    7.42 $    7.42
Protection Cost per Square Foot                            $ 31.76        $ 32.50   $ 31.29 $ 32.49 $ 32.43 $ 32.43
Total Losses                                               $         —    $ 5,000   $   223 $ 10,467 $ 3,490 $ 2,773



                                                                38
       Analysis of Systems, Controls and
              Legal Compliance
Management Assurances
The United States Mint management is responsible for establishing and maintaining adequate internal
control over financial reporting, which includes safeguarding of assets and compliance with laws and
regulations. The United States Mint has made a conscious effort to meet the internal control requirements
of the Federal Manager’s Financial Integrity Act (FMFIA), the Federal Financial Management
Improvement Act (FFMIA), Office of Management and Budget (OMB) Circular A-123, and the Reports
Consolidation Act of 2000. The organizations under the United States Mint’s purview are operating in
accordance with the procedures and standards prescribed by the Comptroller General and Office of
Management and Budget guidelines.

The systems of management controls for the United States Mint are designed to ensure that:
a) Programs achieve their intended results;
b) Resources are used consistent with overall mission;
c) Programs and resources are free from waste, fraud and mismanagement;
d) Laws and regulations are followed;
e) Controls are sufficient to minimize any improper or erroneous payments;
f) Performance information is reliable;
g) Systems security is in substantial compliance with relevant requirements;
h) Continuity of operations planning in critical areas is sufficient to reduce risk to reasonable levels; and
i) Financial management systems are in compliance with Federal financial systems standards, i.e.,
    FMFIA Section 4 and FFMIA.

For all United States Mint responsibilities, we provide herein qualified assurance that the above listed
management control objectives, taken as a whole, were achieved by our office during FY 2008.
Specifically, this assurance is provided relative to Sections 2 and 4 of FMFIA. We further assure that our
financial management systems are in substantial compliance with the requirements imposed by FFMIA.

In 2008, we conducted a full scale assessment of internal controls, including the mandatory Treasury test
items, to evaluate the effectiveness of United States Mint internal control over financial reporting in
accordance with OMB Circular A-123, Management’s Responsibility for Internal Control at the entity,
process and transaction level. The assessment was conducted by a) documenting policies, procedures and
processes; b) identifying relevant control points within the processes; and c) conducting transaction level
testing to evaluate the effectiveness of the identified controls.

Based on the results of this evaluation, the United States Mint identified one material weakness in its
internal controls over financial reporting for the period ending June 30, 2008. This material weakness was
an aggregate result of internal control failures surrounding the financial statement line item Inventory and
Related Property. Other than the one material weakness noted below, the United States Mint can provide a
qualified assurance that internal control over financial reporting as of June 30, 2008 is operating
effectively.




                                                      39
                                          United States Mint
                A-123 Material Weakness from the Annual Assessment of Internal Control
                                            June 30, 2008



Overall Finding: Material Weakness because of an aggregate result of internal control failures
surrounding the financial statement line item Inventory and Related Property.

Summary of Material Weakness: As a result of the annual assessment of internal controls conducted in
accordance with guidance by OMB Circular A-123, we have identified one material weakness in internal
controls as it relates to the financial reporting of Inventory and Related Property on the United States
Mint’s financial statements. This material weakness is an aggregate result of inventory-related internal
control failures that can be summarized as failures to:

•   properly date and sign government bills of lading, shipping documents and authorizations;
•   enter system transactions in a timely manner for inventory receipts, movements and adjustments;
•   maintain appropriate documentation for inventory receipts, movements and adjustments;
•   comply with existing inventory counting standard operating procedures (SOPs) for conducting
    quarterly physical inventories;
•   reconcile the actual physical inventory of goods sold with the United States Mint’s CamData POS
    system for conventions and sales counters;
•   properly document the receipt and departure counts of merchandise with proper signatures for
    conventions and sales counter space; and
•   conduct quarterly physical inventories for all United States Mint sales counters.

Corrective Action Plan: The Senior Management Council (SMC) and Senior Assessment Team (SAT)
developed a corrective action plan to address this material weakness. The corrective action plan addresses
the specific issues related to the material weakness through a multi-tiered approach which includes: a) the
development and implementation of SOPs and Directives; b) the assignment of employee accountability for
compliance with SOPs and Directives; c) employee training in inventory related SOPs and Directives; and
d) validation by the United States Mint’s Office of Internal Control (OIC) that the corrective actions have
been completed. The Corrective Action Plan has been entered into Treasury’s JAMES (Joint Audit
Management Enterprise) System.

The United States Mint is committed to resolving this material weakness. The SAT will provide the SMC
with monthly updates on the progress of closing out all corrective actions. As of November 15, 2008, we
have closed out all but one of the corrective actions. We anticipate closing out the remaining corrective
action by December 15, 2008.




                                                    40
               Limitations of the Financial
                       Statements
The principal financial statements have been prepared to report the financial position and results of
operations of the United States Mint, pursuant to the requirements of 31 U.S.C. § 3515(b). The statements
have been prepared from the books and records of the United States Mint in accordance with generally
accepted accounting principles for Federal entities and the formats prescribe by the Office of Management
and Budget (OMB). The statements are in addition to the financial reports used to monitor and control
budgetary resources which are prepared from the same books and records. The statements should be read
with the realization that they are for a component of the United States Government.




                                                   41
                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036




                                          Independent Auditors’ Report


Inspector General
United States Department of the Treasury

Director
United States Mint:

We have audited the accompanying balance sheets of the United States Mint as of September 30, 2008 and
2007, and the related statements of net cost, changes in net position, and combined statements of budgetary
resources (hereinafter referred to as “financial statements”) for the years then ended. These financial
statements are the responsibility of the United States Mint’s management. Our responsibility is to express
an opinion on these financial statements based on our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements. Those standards and OMB Bulletin
No. 07-04 require that we plan and perform the audits to obtain reasonable assurance about whether the
financial statements are free of material misstatement. An audit includes consideration of internal control
over financial reporting as a basis for designing audit procedures that are appropriate in the circumstances,
but not for the purpose of expressing an opinion on the effectiveness of the United States Mint’s internal
control over financial reporting. Accordingly, we express no such opinion. An audit also includes
examining, on a test basis, evidence supporting the amounts and disclosures in the financial statements,
assessing the accounting principles used and significant estimates made by management, as well as
evaluating the overall financial statement presentation. We believe that our audits provide a reasonable
basis for our opinion.

In our opinion, the financial statements referred to above present fairly, in all material respects, the
financial position of the United States Mint as of September 30, 2008 and 2007, and its net costs, changes
in net position, and budgetary resources for the years then ended in conformity with U.S. generally
accepted accounting principles.

The information in the Management’s Discussion and Analysis, and Required Supplementary Information,
is not a required part of the financial statements, but is supplementary information required by U.S.
generally accepted accounting principles. We have applied certain limited procedures, which consisted
principally of inquiries of management regarding the methods of measurement and presentation of this
information. However, we did not audit this information and, accordingly, we express no opinion on it.

In accordance with Government Auditing Standards, we have also issued our reports dated December 3,
2008, on our consideration of the United States Mint’s internal control over financial reporting and our
tests of its compliance with certain provisions of laws, regulations, and contracts and other matters. The

                                                                        42
                                 KPMG LLP. KPMG LLP, a U.S. limited liability partnership, is
                                 a member of KPMG International, a Swiss cooperative.
purpose of those reports is to describe the scope of our testing of internal control over financial reporting
and compliance and the results of that testing, and not to provide an opinion on the internal control over
financial reporting or on compliance. Those reports are an integral part of an audit performed in accordance
with Government Auditing Standards and should be read in conjunction with this report in assessing the
results of our audits.




December 3, 2008




                                                     43
   Balance Sheets                                                 Department of the Treasury
                                                                         United States Mint
                                                                                       As of September 30,
   (Dollars in thousands)                                                            2008               2007

Assets
Intragovernmental:
    Fund Balance with Treasury (Note 3)                                           $303,386            $255,731
    Accounts Receivable, Net (Note 4)                                                  399               5,870
    Advances and Prepayments (Note 5)                                                4,292               4,452
Total Intragovernmental Assets                                                     308,077             266,053

Custodial Gold and Silver Reserves (Notes 2 and 6)                               10,493,740         10,493,740
Accounts Receivable, Net (Note 4)                                                    23,411             80,279
Inventory and Related Property (Notes 7 and 20)                                     470,957            418,072
Supplies                                                                             16,206             14,635
Property, Plant and Equipment, Net (Note 8)                                         207,634            218,014
Advances and Prepayments (Note 5)                                                     4,656              1,805

Total Assets (Notes 2 and 14)                                                   $11,524,681        $11,492,598

Heritage Assets (Note 9)

Liabilities
Intragovernmental:
    Accounts Payable                                                                $6,425                $509
    Accrued Workers' Compensation and Benefits                                       7,259               7,117
    Unearned Revenues                                                                    —                 156
Total Intra-governmental Liabilities                                                 13,684              7,782

Custodial Liability to Treasury (Notes 2 and 6)                                  10,493,740         10,493,740
Accounts Payable                                                                     42,562             60,096
Surcharges payable (Note 3)                                                          11,314              6,526
Accrued Payroll and Benefits                                                         16,635             15,353
Other Actuarial Liabilities                                                          29,349             29,704
Unearned Revenues                                                                    11,023              1,891

Total Liabilities (Notes 10 and 14)                                             $10,618,307        $10,615,092

Commitments and Contingencies (Notes 12 and 13)

Net Position
Cumulative Results of Operations - Earmarked Funds (Note 14)                       906,374             877,506

Total Liabilities and Net Position                                              $11,524,681        $11,492,598



   The accompanying notes are an integral part of these financial statements.




                                                       44
   Statements of Net Cost                                        Department of the Treasury
                                                                         United States Mint
                                                                        For the Years Ended September 30,
   (Dollars in thousands)                                                             2008             2007


Numismatic Production and Sales
Gross Cost                                                                      $1,398,624          $818,184
Less Earned Revenue                                                             (1,476,433)         (871,472)
Net Program Revenue                                                                (77,809)          (53,288)


Numismatic Production and Sales of Circulating Coins
Gross Cost                                                                            7,128            9,011
Less Earned Revenue                                                                 (7,128)           (9,011)
Net Program Revenue                                                                      —                —


Circulating Production and Sales
Gross Cost                                                                         588,308           722,582
Less Earned Revenue (Note 16)                                                     (588,308)         (722,582)

Net Program Revenue                                                                      —                —

Net Revenue Before Protection of Assets                                            (77,809)          (53,288)


Protection of Assets
Protection Costs                                                                    41,000            37,683

Net Cost of Protection of Assets                                                    41,000            37,683

Net Revenue from Operations (Notes 14 and 15)                                     ($36,809)         ($15,605)



   The accompanying notes are an integral part of these financial statements.




                                                       45
   Statements of Changes in                                         Department of the Treasury
   Net Position                                                            United States Mint
                                                                           For the Years Ended September 30,
   (Dollars in thousands)                                                           2008              2007


Cumulative Results of Operations


Net Position, Beginning of Year - Earmarked Funds (Note 14)                       $877,506          $643,597


Financing Sources:
Transfers to the Treasury General Fund On-Budget (Note 19)                         (15,000)          (43,000)
Transfers to the Treasury General Fund Off-Budget (Note 19)                       (735,000)         (782,000)
Other Financing Sources (Seigniorage) (Note 16)                                    728,638          1,032,284
Imputed Financing Sources (Note 11)                                                  13,421            11,020
Total Financing Sources                                                             (7,941)           218,304

Net Revenue from Operations                                                          36,809            15,605

Net Position, End of Year - Earmarked Funds (Note 14)                             $906,374          $877,506



   The accompanying notes are an integral part of these financial statements.




                                                       46
   Statements of Budgetary Resources Department of the Treasury
                                                                                United States Mint
                                                                           For the Years Ended September 30,
   (Dollars in thousands)                                                             2008            2007
Budgetary Resources
Unobligated balance, brought forward, October 1                                    $53,088            $40,549
Recoveries of prior-year unpaid obligations                                         26,759             15,389
Budget authority
   Spending authority from offsetting collections
       Earned
          Collected                                                               2,066,420         1,863,258
          Change in receivable from federal sources                                     476             5,870
       Change in unfilled customer orders
          Advance received                                                            8,976              2,047
          Without advance from federal sources                                          741                 30
       Subtotal                                                                  2,076,613          1,871,205
Permanently not available                                                          (15,000)           (43,000)
Total Budgetary Resources                                                       $2,141,460         $1,884,143

Status of Budgetary Resources
Obligations incurred
   Reimbursable (Note 17)                                                       $2,090,602         $1,831,055
Unobligated balances
   Apportioned                                                                      50,858             53,088
Total Status of Budgetary Resources                                             $2,141,460         $1,884,143

Change in Obligated Balances
Obligated balance, net
   Unpaid obligations, brought forward, October 1                                 $208,543          $179,561
   Less: Uncollected customer payments from federal
     sources, brought forward, October 1                                            (5,900)                —
   Total unpaid obligated balance, net                                             202,643            179,561

Obligations incurred, net (Note 17)                                               2,090,602         1,831,055
Gross outlays                                                                   (2,012,741)       (1,786,683)
Recoveries of prior-year unpaid obligations, actual                                 (26,759)          (15,389)
Change in uncollected customer payments from federal sources                         (1,217)           (5,900)
Obligated balance, net, end of the period
   Unpaid obligations                                                              259,645            208,543
   Uncollected customer payments from federal sources                               (7,117)            (5,900)
   Total unpaid obligated balance, net, end of period                              252,528            202,643

Net Outlays
Net outlays
   Gross outlays                                                                  2,012,741         1,786,683
   Collections                                                                  (2,075,396)       (1,865,305)
Total Outlays                                                                     ($62,655)         ($78,622)



   The accompanying notes are an integral part of these financial statements.



                                                       47
Notes to the Financial Statements                                 Department of the Treasury
For the Years Ended September 30, 2008 and 2007                          United States Mint
(Dollars are in thousands except Fine Troy Ounce information)

1. Summary of Significant Accounting Policies

Reporting Entity Established in 1792, the United States Mint is a bureau of the Department of the
Treasury (Treasury). The men and women of the United States Mint serve the Nation by exclusively and
efficiently creating the highest quality, most beautiful and inspiring coins and medals that: enable
commerce; reflect American values; advance artistic excellence; educate the public by commemorating
people, places and events; and fulfill retail demand for coins. Numismatic products include medals; proof
coins; uncirculated coins; platinum, gold, and silver bullion coins; and commemorative coins. Custodial
assets consist of the United States’ gold and silver metal reserves. These custodial reserves are often
referred to as “deep storage” and “working stock,” and are reported on the Balance Sheet.

The production of numismatic products is financed principally through sales to the public. The production
of circulating coinage is financed through sales of coins at face value to the Federal Reserve Banks.
Activities related to protection of Treasury-owned custodial assets are funded by revenues and other
financing sources received by the United States Mint Public Enterprise Fund (PEF).

Pursuant to Public Law (P.L.) 104-52, Treasury, Postal Service, and General Government Appropriation
Act for FY 1996, as codified at 31 U.S.C. § 5136, the PEF was established to account for all receipts and
expenses related to production and sale of numismatic items and circulating coinage and protection
activities. Expenses accounted for in this fund include the cost of metals and fabrication and transportation
of metals used in circulating and numismatic coin production and costs of transporting circulating coinage
between the United States Mint production facilities and Federal Reserve Banks (FRB). Metals used in
circulating and numismatic coin production include nickel, copper, zinc, manganese, gold, silver, and
platinum, as well as smaller quantities of other base metals. Other costs/expenses accounted for in this
fund include costs related to research and development and purchases of equipment, as well as capital
improvements and protection costs. P.L. 104-52 states that any amount in the PEF that is determined to be
in excess of the amount required by the PEF shall be transferred to the Treasury General Fund.

Treasury’s Bullion Fund (Bullion Fund) is used to account for United States gold and silver reserves. A
separate Schedule of Custodial Deep Storage Gold and Silver Reserves has been prepared for the deep
storage portion of the Treasury gold and silver reserves for which the United States Mint acts as custodian.

Basis of Accounting and Presentation The accompanying Financial Statements were prepared in
conformity with the reporting format promulgated by the Office of Management and Budget (OMB)
Circular A-136, Financial Reporting Requirements, and in accordance with accounting standards issued by
the Federal Accounting Standards Advisory Board (FASAB). The United States Mint’s financial
statements have been prepared to report the financial position, net cost of operations, changes in net
position, and budgetary resources, as required by P.L. 104-52.

Management uses estimates and assumptions in preparing financial statements. Those estimates and
assumptions affect the reported amounts of assets and liabilities, the disclosure of contingent assets and
liabilities, and the reported revenues and expenses. Actual results could differ from those estimates.
Accounts subject to estimates include depreciation, imputed costs, payroll and benefits, accrued worker’s
compensation, allowance for uncollectible accounts receivable, and unemployment benefits.

The accompanying financial statements have been prepared on the accrual basis of accounting. Under the
accrual method, revenues and other financing sources are recognized when earned and expenses are
recognized when a liability is incurred, without regard to receipt or payment of cash.




                                                     48
Earned Revenues and Other Financing Source (Seigniorage) Circulating Sales: P.L. 104-52,
establishing the PEF, provides for the sale of circulating coinage at face value to the FRB. Revenue from
the sale of circulating coins is recognized when the product is shipped to the FRB.

Revenue from the sale of circulating coins to the FRB and numismatic sales of circulating coins is limited
to the recovery of the cost of manufacturing those coins.

Other Financing Source (Seigniorage) is the face value of newly minted coins less the cost of production
(which includes the cost of the metal, manufacturing, and transportation). Seigniorage is the profit from
coining money. Seigniorage adds to the government’s cash balance, but unlike the payment of taxes or
other receipts, it does not involve a transfer of financial assets from the public. Instead, it arises from the
exercise of the Government’s sovereign power to create money and the public’s desire to hold financial
assets in the form of coins. Therefore, the President’s Budget excludes seigniorage from receipts and treats
it as a means of financing. The President’s Budget also treats profits resulting from the sale of gold as a
means of financing because the value of gold is determined by its value as a monetary asset rather than as a
commodity. Other financing source (seigniorage) is recognized when coins are shipped to the FRB in
return for deposits to the PEF.

Numismatic Sales: Revenue from numismatic sales to the public is recognized when products are shipped
to customers. Prices for numismatic products are based on the product cost plus a reasonable net margin.
Bullion products are priced based on the market price of the precious metals plus a premium to cover
manufacturing costs.

Rental Revenue: The United States Mint receives rental revenue from floor space that is subleased in two
United States Mint facilities located in Washington, D.C. The space is subleased at cost to other Federal
government entities. For the purpose of presentation, rental revenue is combined with numismatic sales on
the statement of net cost.

Fund Balance with Treasury All cash is maintained at the Treasury. Fund Balance with Treasury is the
aggregate amount of the United States Mint’s cash accounts with the U.S. Government’s central accounts
from which the United States Mint is authorized to make expenditures and pay liabilities. It is an asset
because it represents the United States Mint’s claim to the U.S. Government resources.

Accounts Receivable Accounts receivable are amounts due to the United States Mint from the public and
other Federal agencies. An allowance for uncollectible customer accounts receivable from the public is
established for all accounts that are more than 180 days past due. However, the United States Mint will
continue collection action on those accounts that are more than 180 days past due as specified by the Debt
Collection Improvement Act of 1996.

Inventories and Related Property Inventories of circulating and numismatic coinage that do not contain
either gold or silver are valued at the lower of cost or market. Costs of the metal and fabrication
components of the inventories are determined using a weighted average inventory methodology.
Conversion costs (i.e., the cost to convert the fabricated blank into a finished coin) are valued using a
standard cost methodology.

Numismatic coinage containing Treasury-owned gold and silver does not include the value of the Treasury-
owned gold or silver because the metals are non-entity assets. The costs of those metals appear as
“Custodial Gold and Silver Reserves” on the Balance Sheet and are valued at the statutory rates of
$42.2222 per fine troy ounce (FTO) of gold and no less than $1.292929292 per FTO of silver.
Accordingly, the United States Mint values silver at $1.292929292 per FTO.

United States Mint-owned platinum, gold, and silver are valued at the lower of cost or market using a
weighted average inventory methodology.

Custodial Gold and Silver Reserves Custodial gold and silver reserves consist of both “deep storage” and
“working stock” gold and silver.



                                                      49
Deep Storage is defined as that portion of the U.S. Government-owned gold and silver Bullion Reserve
which the United States Mint secures in sealed vaults. Deep storage gold comprises the vast majority of the
Bullion Reserve and consists primarily of gold bars. Deep storage silver is also primarily in bar form.

Working Stock is defined as that portion of the U.S. Government-owned gold and silver Bullion Reserve
which the United States Mint can use as the raw material for minting coins. Working stock gold comprises
only about one percent of the Gold Bullion Reserve and consists of bars, blanks, unsold coins, and
condemned coins. Similarly, working stock silver consists of bars, blanks, unsold coins, or condemned
coins.

Treasury allows the United States Mint to use some of its gold and silver as working stock. Generally, the
United States Mint will replace the working stock when used in production with purchases of gold and
silver on the open market. In those cases in which the gold or silver is not replaced, the United States Mint
reimburses Treasury the market value of the depleted gold or silver.

Supplies Supplies are items that are not considered inventory and are not a part of the finished product.
These items include plant engineering and maintenance supplies. Supplies are accounted for using the
consumption method, in which supplies are recognized as assets upon acquisition and expensed as they are
consumed.

Advances and Prepayments Payments in advance of the receipt of goods and services are recorded as
advances and prepaid expenses at the time of prepayment, and are expensed when related goods and
services are received.

Property, Plant and Equipment Property, plant and equipment are valued at cost less accumulated
depreciation. The United States Mint’s threshold for capitalizing new property, plant and equipment is
$25,000 for single purchases and $500,000 for bulk purchases. Depreciation is computed on a straight-line
basis over the estimated useful lives of the related assets as follows:

 Computer Equipment                                    3 to 5 years
 ADP Software                                          2 to 10 years
 Machinery and Equipment                               7 to 20 years
 Structures, Facilities and Leasehold Improvements     10 to 30 years

Major alterations and renovations are capitalized over the shorter of a 20-year period or the remaining
useful life of the asset and depreciated using the straight-line method, while maintenance and repair costs
are charged to expense as incurred. There are no restrictions on the use or convertibility of general
property, plant and equipment.

Heritage Assets Heritage assets are items that are unique because of their historical, cultural, educational,
or artistic importance. These items are collection type assets that are maintained for exhibition and are
preserved indefinitely.

Liabilities Liabilities represent actual and estimated amounts likely to be paid as a result of transactions or
events that have already occurred. All liabilities covered by budgetary resources can be paid from revenues
received from the United States Mint PEF.

Surcharges Legislation authorizing commemorative programs often requires that the PEF remit a portion
of the sales proceeds to recipient organizations. These amounts are defined as surcharges. A surcharges
payable account is established for surcharges collected but not yet paid to the designated recipient
organization.

Pursuant to P.L. 104-208, Omnibus Consolidated Appropriations for Fiscal Year 1997 (Act), recipient
organizations cannot receive surcharge payments unless all of the United States Mint’s operating costs for
the coin program are fully recovered. The United States Mint may make interim surcharge payments
during a commemorative program if the recipient organization meets the eligibility criteria in the Act, if the



                                                      50
profitability of the program is determinable, and if the United States Mint is assured it is not at risk of a
loss. P.L. 108-15, The American 5-Cent Coin Design Continuity Act of 2003, contains a provision that
recipient organizations have two years from the end of the program sales to meet the requirements of P.L.
104-208. If the requirements are not met within two years, the surcharges collected are to be deposited in
the Treasury as miscellaneous receipts. Additionally, P.L. 108-15 changed the fundraising requirement for
recipient organizations from an amount equal to the maximum surcharges possible based on the maximum
mintage to an amount equal to the surcharges actually collected based on sales.

Earmarked Funds Pursuant to P.L. 104-52, the PEF was established as the sole funding source for United
States Mint activities. The PEF meets the requirements of an earmarked fund as defined in SFFAS 27,
Identifying and Reporting Earmarked Funds.

Unearned Revenues These are amounts received from customers for which the numismatic products have
not been shipped. In the case of intragovernmental entities, unearned revenue is rental payments received
in advance.

Return Policy If for any reason a customer is dissatisfied, the entire product must be returned within 30
days of receiving the order to receive a refund or replacement. Shipping charges are not refunded. Further,
the United States Mint will not accept partial returns or issue partial refunds. Historically, the United States
Mint receives very few returns, which are immaterial. Therefore, no reserve for returns is considered
necessary.

Shipping and Handling The United States Mint reports shipping and handling cost as Cost of Goods Sold
and not as part of Selling, General and Administrative expenses. General postage costs for handling
administrative functions are reported as part of the United States Mint’s General and Administrative
Expenses.

Annual, Sick and Other Leave Annual leave is accrued when earned and reduced as leave is taken. The
balance in the accrued leave account is calculated using current pay rates. Sick leave and other types of
non-vested leave are charged to operating costs as they are used.

Accrued Workers Compensation and Other Actuarial Liabilities The Federal Employees'
Compensation Act (FECA) provides income and medical cost protection to cover Federal civilian
employees injured on the job, employees who have incurred a work-related injury or occupational disease,
and to pay beneficiaries of employees whose deaths are attributable to job-related injuries or occupational
disease. The FECA program is administered by the United States Department of Labor (DOL), which pays
valid claims and subsequently seeks reimbursement from the United States Mint for these paid claims.

The FECA liability is based on two components. The first component is based on actual claims paid by
DOL but not yet reimbursed by the United States Mint. There is generally a two-to-three-year time period
between payment by DOL and reimbursement to DOL by the United States Mint. The second component
is the actuarial liability, which estimates the liability for future payments as a result of past events. The
actuarial liability includes the expected liability for death, disability, medical, and miscellaneous cost for
approved compensation cases.

Protection Costs Virtually all of the Treasury’s gold and majority of the silver reserves are in the custody
of the United States Mint, which is responsible for safeguarding the reserves. These costs are borne by the
United States Mint, but are not directly related to the circulating or numismatic coining operations of the
United States Mint. Organizationally, the Protection Department, which is responsible for safeguarding the
reserves, is a separate line of business from coining operations.

Other Cost and Expenses (Mutilated and Uncurrent) Other costs and expenses consist primarily of
returns of mutilated or uncurrent coins to the United States Mint. Coins that are chipped, fused, and/or not
machine-countable are considered mutilated. The United States Mint reimburses the entity that sent in the
mutilated coins using weight formulas that estimate the face value of these coins. If the coins have melted
(as in a fire), the United States Mint reimburses the entity an amount based on the metal content of the



                                                      51
melted mass. Uncurrent coins are worn, but machine-countable, and their genuineness and denomination
are still recognizable. Uncurrent coins are replaced with new coins of the same denomination by the FRB.
All mutilated or uncurrent coins received by the United States Mint are shipped to a fabricator which
purchases the returned metal and recycles it in the manufacture of coinage strip.

Tax Exempt Status As an agency of the Federal Government, the United States Mint is exempt from all
income taxes imposed by any governing body, whether it is a Federal, state, commonwealth, local, or
foreign government.

Concentrations The United States Mint purchases the coil and blanks used in the production of circulating
coins from three vendors at competitive market prices.

Transfers to the Treasury General Fund The United States Mint transfers to the Treasury General Fund
amounts in the PEF determined to be in excess of the amounts required for United States Mint operations
and programs. These amounts are generated from the other financing source (seigniorage) derived from the
sale of circulating coins and from net revenues generated from the sale of numismatic products.

Excess amounts generated from other financing source (seigniorage) are off-budget and deposited in the
Treasury General Fund. Off-budget means that these funds cannot be used to reduce the annual budget
deficit. Instead, they are used as a financing source (i.e., they reduce the amount of cash that Treasury has
to borrow to pay interest on the national debt).

Excess amounts from revenues generated from the sale of numismatic products less protection costs are on-
budget and deposited in the Treasury General Fund. Unlike seigniorage, the numismatic transfer is
available as current operating revenue or can be used to reduce the annual budget deficit.

Budgetary Resources The United States Mint receives all of its financing from the public and receives an
apportionment from the OMB. This apportionment is considered a budgetary authority. The United States
Mint’s budgetary resources consist of unobligated balances, transfers, and spending authority from
offsetting collections, which is net of amounts that are permanently not available. “Permanently not
available” funds are on-budget numismatic transfers to the General Fund.

2. Non-Entity Assets
Components of Non-entity Assets at September 30 are as follows:

                                              2008          2007

Custodial Gold Reserves (Deep Storage)      $10,355,539   $10,355,539
Custodial Silver Reserves (Deep Storage)          9,148         9,148
Custodial Gold Reserves (Working Stock)        117,514       117,514
Custodial Silver Reserves (Working Stock)       11,539        11,539
Total Non-entity Assets                      10,493,740    10,493,740
Total Entity Assets                           1,030,941      998,858

Total Assets                                $11,524,681   $11,492,598



Entity assets are assets that the reporting entity has authority to use in its operations. The United States
Mint management has legal authority to use entity assets to meet entity obligations. However, all assets in
the possession of the United States Mint are not entity assets. Treasury allows the United States Mint to
use some of its gold and silver as working stock in the production of coins. The United States Mint must
replace the working stock or pay the Treasury General Fund for the metal used. Thus, Treasury deep
storage and working stock gold and silver are all considered non-entity assets.




                                                               52
3. Fund Balance with Treasury
Fund Balance with Treasury at September 30 consists of:

                                             2008             2007
Revolving Fund                               $303,386         $255,731
Total Fund Balance with Treasury             $303,386         $255,731



Status of Fund Balance with Treasury
Unobligated Balance                            50,858           53,088
Obligated Balance, Not Yet Disbursed          252,528          202,643
Total                                        $303,386         $255,731



The United States Mint does not receive appropriated budget authority. The fund balance with Treasury is
entirely available for use to support United States Mint operations. At September 30, 2008 and 2007, the
revolving fund balance included $11.3 million and $6.5 million, respectively, in restricted amounts for
possible payment of surcharges to recipient organizations.

4. Accounts Receivable, Net
Components of accounts receivable are as follows:

                                       September 30, 2008
                                   Gross                            Net
                                             Allowance
                              Receivables                   Receivables
Intragovernmental                   $6,345     ($5,946)           $399
With the Public                     24,254          (843)       23,411
Total Accounts Receivable          $30,599     ($6,789)        $23,810



                                       September 30, 2007
                                   Gross                            Net
                                             Allowance
                              Receivables                   Receivables
Intragovernmental                   $5,870           $—         $5,870
With the Public                     80,671          (392)       80,279
Total Accounts Receivable          $86,541      ($392)         $86,149



At September 30, 2008, there were approximately $6.3 million in intragovernmental accounts receivable,
compared to $5.9 million at September 30, 2007. This largely represents amounts due to the United States
Mint for a joint numismatic product with another agency. Management determined that the collection of
$5.9 million related to the program was in doubt and has included that amount in the Allowance for
Doubtful Accounts for FY 2008. Receivables with the public at September 30, 2008 are $24.3 million,
which consist primarily of amounts owed by metal fabricators for scrap and webbing. This compares to
receivables with the public at September 30, 2007, of $80.7 million, which primarily consisted of $77.1
million in accounts receivable from metal scrap and webbing sold to fabricators. The remainder of the
accounts receivable represents outstanding balances on numismatic orders. The allowance for doubtful
accounts is the balance of the accounts receivable with the public that is past due by 180 days or more.
Collection action continues on these accounts, but an allowance is recorded.




                                                                  53
5. Advances and Prepayments
The components of advances and prepayments at September 30 are as follows:

                                     2008          2007
Intragovernmental                       $4,292        $4,452
With the Public                          4,656         1,805

Total Other Assets                      $8,948        $6,257



Intragovernmental advances and prepayments at September 30, 2008 and 2007, include $2.5 million each
year that the United States Mint paid the Treasury Working Capital Fund for a variety of centralized
services. Also included in intragovernmental advances are the progress payments (advances) for
equipment and building improvements under construction. The United States Mint completed an entity-
wide security upgrade during FY 2008, which required progress payments to other federal agencies for
construction and other related services. As of September 30, 2008 this advance had been liquidated, but as
of September 30, 2007, the balance of the advance was $1.1 million. The remaining balance of
approximately $1.8 million represents payments made to the United States Postal Service for product
delivery services at September 30, 2008, compared to approximately $810 thousand paid at September 30,
2007.

Advances and Prepayments with the public consist primarily of advances for freight forwarding.

6. Custodial Gold and Silver Reserves
As custodian, the United States Mint is responsible for safeguarding much of the Nation’s gold and silver
reserves, which include deep storage and working stock. The asset and the custodial liability to Treasury
are reported on the Balance Sheet at statutory rates. In accordance with 31 U.S.C. § 5117(b) and 31 U.S.C.
§ 5116(b)(2), statutory rates of $42.2222 fine troy ounce (FTO) of gold and no less than $1.292929292 per
FTO of silver, respectively, are used to value the entire custodial reserves held by the United States Mint.
Accordingly, the United States Mint values the silver at $1.292929292 per FTO.

The market value for gold and silver at September 30 is determined by the London Gold Fixing (PM) rate.
Amounts and values of custodial gold and silver in custody of the United States Mint at September 30 are
as follows:

                                      2008           2007

Gold - Deep Storage:
Inventories (FTO)                   245,262,897    245,262,897
Market Value ($ per FTO)               $884.50        $743.00
Market Value ($ in thousands)      $216,935,032   $182,230,333
Statutory Value ($ in thousands)    $10,355,539    $10,355,539

Gold - Working Stock:
Inventories (FTO)                     2,783,219      2,783,219
Market Value ($ per FTO)               $884.50        $743.00
Market Value ($ in thousands)        $2,461,757     $2,067,932
Statutory Value ($ in thousands)      $117,514       $117,514

Silver - Deep Storage:
Inventories (FTO)                     7,075,171      7,075,171
Market Value ($ per FTO)                 $12.96         $13.65
Market Value ($ in thousands)          $91,694        $96,576
Statutory Value ($ in thousands)        $9,148         $9,148

Silver - Working Stock:
Inventories (FTO)                     8,924,829      8,924,829
Market Value ($ per FTO)                 $12.96         $13.65
Market Value ($ in thousands)         $115,666       $121,824
Statutory Value ($ in thousands)       $11,539        $11,539




                                                          54
Total Market Value of Custodial Gold
and Silver Reserves ($ in thousands)            $219,604,149   $184,516,665

Total Statutory Value of Custodial Gold
and Silver Reserves ($ in thousands)             $10,493,740    $10,493,740



7. Inventory and Related Property
The components of inventories and related property at September 30 are summarized below:

                                                   2008           2007
Raw Materials                                      $313,186        $229,440
Work-In-Process                                       49,481          89,878
Inventory held for current sale                      108,290          98,754
Total Inventory and Related Property               $470,957        $418,072



Raw materials consist of unprocessed materials and by-products of the manufacturing process and the
metal value of unusable inventory such as scrap or condemned coins that will be recycled into a usable raw
material. In addition, as of September 30, 2008 and 2007, the inventory includes $32.0 million and $27.0
million in fair value silver hedge activity of which additional information can be found in note 20. Work-
in-process consists of semi-finished materials.

8. Property, Plant and Equipment, Net
Components of property, plant and equipment are as follows:

                                           September 30, 2008
                                               Accumulated
                                                             Total Property,
                                               Depreciation
                                  Asset Cost                      Plant and
                                                       and
                                                            Equipment, Net
                                               Amortization

Land                                 $2,529           $—            $2,529
Structures, Facilities and
Leasehold Improvements             192,499       (122,640)          69,859

Computer Equipment                   30,990       (28,082)           2,908

ADP Software                         57,255       (54,735)           2,520

Construction-In-Progress             26,296               —         26,296

Machinery and Equipment            244,207       (140,685)         103,522
Total Property, Plant and
Equipment, Net                    $553,776      ($346,142)        $207,634



                                           September 30, 2007
                                             Accumulated
                                                           Total Property,
                                             Depreciation
                                  Asset Cost                    Plant and
                                                     and
                                                          Equipment, Net
                                             Amortization

Land                                 $2,529            $—            $2,529
Structures, Facilities and
Leasehold Improvements              189,274       (116,715)          72,559

Computer Equipment                   30,212        (26,485)           3,727

ADP Software                         92,290        (86,689)           5,601

Construction-In-Progress             21,584               —          21,584

Machinery and Equipment             236,715       (124,701)         112,014

Total Property, Plant and
Equipment, Net                     $572,604      ($354,590)        $218,014




                                                                      55
The land and buildings used to manufacture circulating coinage and numismatic products are owned by the
United States Mint and located in San Francisco, California; Philadelphia, Pennsylvania; Denver, Colorado;
and West Point, New York. In addition, the United States Mint owns the land and buildings at the United
States Bullion Depository at Fort Knox.

Depreciation and amortization expenses charged to operations during the years ended September 30, 2008
and 2007, were $34.3 million and $37.9 million, respectively.

9. Heritage Assets
Assets classified as heritage assets are predominately coins produced in prior years that are held for
historical archival purposes. The United States Mint divides heritage assets into two categories: Coin
Collections and Historical Artifacts. The coin collections include examples of the various coins produced
by the United States Mint over the years, separated into collections of non-precious metal coins; silver
coins; and gold and extremely rare coins. The historical artifacts are divided into the furniture collection
and the equipment collection [e.g., period furniture (some antiques) previously used at the United States
Mint facilities, balances/scales, obsolete manufacturing equipment, examples of daily activity, etc.] that
were used in years past. The United States Mint generally does not place a value on heritage assets, even
though some of the coins and artifacts are priceless. However, the assets are accounted for and controlled
for protection and conservation purposes. Heritage assets held by the United States Mint are generally in
acceptable physical condition.

10. Liabilities Not Covered by Budgetary Resources
Components of Liabilities Not Covered by Budgetary Resources at September 30 are as follows:

                                             2008          2007
Custodial Gold Reserves (Deep Storage)     $10,355,539 $10,355,539

Custodial Silver Reserves (Deep Storage)         9,148         9,148

Working Stock Inventory-Gold                   117,514      117,514

Working Stock Inventory-Silver                  11,539       11,539

Total Liabilities Not Covered by
Budgetary Resources                        $10,493,740 $10,493,740

Total Liabilities Covered by Budgetary
Resources                                     124,567       121,352

Total Liabilities                          $10,618,307   $10,615,092


Liabilities not covered by budgetary resources represent amounts owed in excess of available funds, other
amounts, or custodial liabilities to Treasury that are entirely offset by custodial gold and silver reserves
held by the United States Mint on behalf of the Federal Government.

11. Retirement Plans, Other Post-employment Costs, and Other Imputed Costs
The United States Mint contributes seven percent of basic pay for employees participating in the Civil
Service Retirement System (CSRS). On January 1, 1987, the Federal Employees’ Retirement System
(FERS) went into effect pursuant to P.L. 99-335. Most employees hired after December 31, 1983, are
automatically covered by FERS and Social Security. Employees hired prior to January 1, 1984, could elect
to join FERS or remain in CSRS.

A primary feature of FERS is that it offers a savings plan to which the United States Mint automatically
contributes one percent of basic pay and matches any employee contributions up to an additional four
percent of basic pay. Employees can contribute any dollar amount or percentage of their basic pay as long
as the annual dollar total does not exceed the Internal Revenue Code limit of $15,500 for calendar year
2008. Employees participating in FERS are covered by the Federal Insurance Contribution Act (FICA) for
which the United States Mint contributes a matching amount to the Social Security Administration.




                                                               56
Although the United States Mint contributes a portion for pension benefits and makes the necessary payroll
deductions, it is not responsible for administering either CSRS or FERS. Therefore, the United States Mint
does not report CSRS or FERS assets, accumulated plan benefits or unfunded liabilities, if any, applicable
to the United States Mint employees. Reporting such amounts is the responsibility of the Office of
Personnel Management (OPM). OPM has provided the United States Mint with certain cost factors that
estimate the cost of providing the pension benefit to current employees. The cost factors of 25.2 percent of
basic pay for CSRS-covered employees and 12.0 percent of basic pay for FERS-covered employees were in
use for FY 2008. The cost factor for CSRS-covered employees was increased by two-tenths of one percent
(.2%) over FY 2007 by OPM. The cost factor for FERS-covered employees remained the same.

The amounts that the United States Mint contributed to the retirement plans and social security for the year
ended September 30 are as follows:

                                      2008        2007
Social Security System                  $7,047      $6,707

Civil Service Retirement System          1,674       1,632
Federal Employees Retirement System
(Retirement & Thrift Savings Plan)      11,502      10,858

Total Retirement Plans and
Other Post-employment Cost             $20,223     $19,197


The United States Mint is also recognizing its share of the future cost of post-retirement health benefits and
life insurance for employees while they are still working with an offset classified as imputed financing.
OPM continues to report the overall liability of the Federal Government and make direct recipient
payments. OPM has also provided certain cost factors that estimate the true cost of providing the post-
retirement benefit to current employees. The cost factors relating to health benefits are $5,220 and $5,572
per employee enrolled in the Federal Employees Health Benefits Program in FY 2008 and FY 2007,
respectively. The cost factor relating to life insurance is two-one hundredths percent (.02%) of basic pay
for employees enrolled in the Federal Employees Group Life Insurance Program for both FY 2008 and FY
2007.

The amount of imputed cost related to retirement plans and other post-employment costs incurred by the
United States Mint for the year ended September 30 is as follows (before the offset for imputing financing):

                                      2008        2007

Health Benefits                         $7,953      $8,427

Life Insurance                               23          11

Pension Expense                          2,655       2,582
Total Imputed Retirement and Post-
                                       $10,631     $11,020
employment Costs


In addition to the pension and retirement benefits described above, the United States Mint also records
imputed costs and financing for Treasury Judgment Fund payments made on behalf of the agency. Entries
are made in accordance with FASAB Interpretation No. 2. For FY 2008 entries for Judgment Fund
payments totaled $2.8 million (Other Funds). For FY 2007, there were no payments by the Judgment Fund
on behalf of the United States Mint.

12. Lease Commitments
The United States Mint as Lessee: The United States Mint leases office and warehouse space from
commercial vendors and the General Services Administration (GSA). In addition, the agency leases copier
and other office equipment from commercial vendors and vehicles from GSA. With the exception of the
commercial leases on two office buildings in Washington, DC, all leases are one-year, or one-year with
renewable option years. The two building leases in Washington, DC have terms of 20 and 10 years,
respectively. Because all of the United States Mint’s leases are considered cancelable, there are no
minimum lease payments due.



                                                      57
The United States Mint as Lessor: The United States Mint subleases office space at cost to several other
Federal entities in the two leased buildings in Washington, DC. The leases vary from one year with option
years to multiple year terms. As of September 30, 2008, the United States Mint subleased in excess of
182,000 square feet in the two leased buildings. As of September 30, 2008, tenants include the Internal
Revenue Service, the Treasury Executive Institute, the Bureau of the Public Debt, U.S. Customs and
Border Protection, the Federal Consulting Group, and the U.S. Marshals Service. All of the subleases are
operating leases and subject to annual availability of funding.

13. Contingencies
The United States Mint is subject to legal proceedings and claims which arise in the ordinary course of its
business. Judgments, if any, resulting from pending litigation against the United States Mint generally
would be satisfied from the PEF. Likewise, under the Notification and Federal Employee
Antidiscrimination and Retaliation Act of 2002 (No FEAR Act, P. L. 107-174), settlements and judgments
related to acts of discrimination and retaliation for whistleblowing will be paid from the PEF. In the
opinion of management, the ultimate resolution of these actions will not materially affect the United States
Mint’s financial position or the results of its operations.

Asserted and pending legal claims for which loss is reasonably possible were estimated to range from zero
to $7 million at September 30, 2008. In management's opinion, the ultimate resolution of other actions will
not materially affect the United States Mint’s financial position or net cost.

14. Earmarked Funds
P. L. 104-52 provides that “all receipts from United States Mint operations and programs, including the
production and sale of numismatic items, the production and sale of circulating coinage at face value to the
FRB, the protection of government assets, and gifts and bequests of property, real or personal shall be
deposited into the PEF and shall be available to fund its operations without fiscal year limitations.” The
PEF meets the requirements of an earmarked fund as defined in SFFAS 27, Identifying and Reporting
Earmarked Funds.

15. Intragovernmental Costs and Earned Revenue
Intragovernmental costs and earned revenue reflect transactions in which both the buyer and seller are
Federal entities. Revenue with the public reflects transactions for goods or services with a non-Federal
entity. However, if a Federal entity purchases goods or services from another Federal entity and sells those
goods to the public, the revenue would be classified as “with the public,” but the related expense would be
classified as “intragovernmental.” The purpose for this classification is to enable the Federal Government
to prepare consolidated financial statements. The following table provides earned revenues, gross cost, and
net program revenue.

                                        2008         2007
Numismatic Production and Sales
Cost:
  Intragovernmental:
  Selling, General and Administrative    $16,170       $9,091
  Imputed Costs                            4,916        2,204
  Total Intragovernmental Costs           21,086       11,295
  Public:
  Cost of Goods Sold                    1,301,887     739,506
  Selling, General and Administrative     75,651       67,383
  Total Public Cost                     1,377,538     806,889
Gross Cost                              1,398,624     818,184
Revenue:
  Intragovernmental:
  Rent Revenues                             9,071       8,471
  Other Intragovernmental Revenues             734          260
  Total Intragovernmental Revenues          9,805       8,731




                                                       58
  Public                                   1,466,628     862,741
Total Earned Revenue                       1,476,433     871,472
Net Program Revenue                         ($77,809)   ($53,288)


Numismatic Production and Sales of Circulating Coins
Cost:
  Intragovernmental:
  Selling, General and Administrative           $578        $474
  Total Intragovernmental Costs                  578         474
  Public:
  Cost of Goods Sold                           3,847       5,020
  Selling, General and Administrative          2,703       3,517
  Total Public Cost                            6,550       8,537
Gross Cost                                     7,128       9,011
Revenue:
  Public                                       7,128       9,011
Total Earned Revenue                           7,128       9,011
Net Program Revenue                              $—          $—


Circulating Production and Sales
Cost:
  Intragovernmental:
  Selling, General and Administrative        $13,510     $21,622
  Imputed Costs                                8,505       8,815
  Total Intragovernmental Costs               22,015      30,437
  Public:
  Cost of Goods Sold                         472,080     604,688
  Selling, General and Administrative         83,450      71,830
  Other Costs and Expenses
  (Mutilated and Uncurrent)                   10,763      15,627
  Total Public Cost                          566,293     692,145
Gross Cost                                   588,308     722,582
Revenue:
  Public                                     588,308     722,582
Total Earned Revenue                         588,308     722,582
Net Program Revenue                              $—          $—


Net Revenue Before Protection of Assets     ($77,809)   ($53,288)



Protection of Assets
Public:
  Protection Cost                            $41,000     $37,683
Total Earned Revenue                              —             —
Net Cost of Protection of Assets             $41,000     $37,683


Net Revenue from Operations                ($36,809)    ($15,605)



16. Earned Revenues and Other Financing Source (Seigniorage)
Earned revenues and other financing source (seigniorage) are recognized upon shipment of circulating
coins to both the FRB and numismatic customers. A portion of the earned revenue from circulating
production and sales displayed on the United States Mint’s Statement of Net Cost is generated by goods
and services provided to the public. Revenue is limited to the recovery of all costs associated with the
production, administration, and distribution of circulating coins (both to the FRB and to the public), and
payment by the United States Mint for mutilated and uncurrent coins. The difference between the face
value of coins and cost is other financing source (seigniorage). A portion of other financing source


                                                           59
(seigniorage) is returned to the Treasury General Fund as an off-budget receipt. The United States Mint
transfers to the Treasury General Fund amounts in the PEF determined to be in excess of amounts required
to finance operations and programs. After recovering all costs from numismatic sales, the remaining profit
is returned to the Treasury General Fund as an on-budget receipt.

The components of circulating coins and numismatic sales of circulating coins for the year ended
September 30 are as follows:

                                                     2008        2007

Revenue-FRB                                       $588,308   $722,582
Other Financing Source (Seigniorage)-FRB           706,212   1,005,194
Total Circulating Coins                         $1,294,520 $1,727,776


Revenue-with the public                             $7,128     $9,011
Other Financing Source (Seigniorage)-with the
public                                              22,426     27,090
Total Numismatic Sales of Circulating Coins       $29,554     $36,101



17. Apportionment Categories of Obligations Incurred
The United States Mint receives apportionments of its resources from OMB. An apportionment is a plan,
approved by OMB, to spend resources provided by law. All United States Mint obligations are classified
as reimbursable, as they are financed by offsetting collections received in return for goods and services
provided. OMB usually uses one of two categories to distribute budgetary resources. Category A
apportionments distribute budgetary resources by fiscal quarters. Category B apportionments typically
distribute budgetary resources by activities, projects, objects, or a combination of these categories. The
United States Mint has only category B apportionments.

Details of Obligations Incurred as of September 30 are as follows:

                                                     2008        2007
Reimbursable:
  Category B
  Total Operating Expenses                      $2,056,364 $1,809,473
  Numismatic Capital                               19,514       9,245
  Circulating and Protection Capital               14,724      12,337
Total Apportionment
Categories of Obligations Incurred              $2,090,602 $1,831,055



18. Explanation of Differences Between the Statement of Budgetary Resources and the
Budget of the United States Government
Statement of Federal Financial Accounting Standards No. 7, Accounting for Revenue and Other Financing
Sources and Concepts for Reconciling Budgetary and Financial Accounting, requires an explanation of
material differences between budgetary resources available, the status of those resources, and outlays as
presented in the Statement of Budgetary Resources to the related actual balances published in the Budget of
the United States Government (President’s Budget). The President’s Budget with actual numbers for fiscal
year 2008 is expected to be published in February 2009 and made available through OMB. The following
chart displays the differences between the Statement of Budgetary Resources and the actual FY 2007
balances included in the FY 2009 President’s Budget. The explanation for the differences is two-fold.
First, there is a timing difference between the preparation of the Statement of Budgetary Resources and the
President’s Budget. Items that may have been incorporated into the final Statement of Budgetary
Resources would not appear in the President’s Budget, which is based on the final TIER submission to
Treasury. Secondly, as part of the conversion to a budgetary accounting system from a non-budgetary
system, the United States Mint and the Administrative Resource Center continue to make necessary
corrections to budgetary account balances



                                                                60
                                               September 30, 2007
                                             Statement of
                                              Budgetary      President's
                                              Resources        Budget

United States Mint Public Enterprise Fund
Total Budgetary Resources                      $1,884,143      $1,889,950

Status of Budgetary Resources:
  Obligations Incurred                           1,831,055      1,836,862
  Unobligated Balances-available                   53,088         53,088
Total Status of Budgetary Resources            $1,884,143 $1,889,950
Net Outlays                                      ($78,622)     ($72,814)



19. Legal Arrangements Affecting Use of Unobligated Balances
The United States Mint PEF establishes that all receipts from United States Mint operations and programs,
including the production and sale of numismatic items, the production and sale of circulating coinage, the
protection of Government assets, and gifts and bequests of property, real or personal, shall be deposited
into the United States Mint PEF and shall be available without fiscal year limitations. Any amount that is
in excess of the amount required by the United States Mint to cover obligations shall be transferred to the
Treasury for deposit as miscellaneous receipts. At September 30, 2008 and 2007, the United States Mint
transferred excess receipts to the Treasury General Fund of $750 million and $825 million, respectively.

20. Hedging Program
The United States Mint has engaged in a hedging program since FY 2006 to avoid fluctuation in silver
costs as a result of the changes in market prices. The United States Mint purchases silver in large quantities
and sells an interest in that silver to a trading partner, while maintaining physical custody and title to the
silver. Sales of silver to the trading partner are made at the same spot price that the United States Mint paid
to obtain the silver on the open market. The partner’s interest in United States Mint silver is reduced as
finished silver coins are sold to authorized purchasers (APs). Repurchases of the trading partner’s interest
in the silver occurs upon sale of coins by the United States Mint. Repurchases are made on the same day as
sales, in the same quantity sold, and using the same spot price as was used for the sale to the AP. Each sale
to and from the purchaser carries a small transaction fee, the selling and buying fees net to a cost of one
half cent per ounce. The United States Mint incurred $90 thousand in hedging fees in FY 2008, compared
to $43 thousand incurred in FY 2007.

At September 30, 2008 and 2007, hedging activity of $32.0 million and $27.0 million included in inventory
represents the value of the silver sold to the trading partner and not yet sold by the United States Mint and,
therefore, not repurchased from the trading partner. In FY 2008, the United States Mint recorded an
unrealized gain from hedging activity of $932 thousand, compared with $1.6 million in FY 2007.

21. Reconciliation of Net Cost of Operations to Budget
                                                 For The Years Ended
                                                    September 30,
                                                       2008         2007
Resources Used to Finance Activities:
Budgetary Resources Obligated
  Obligations Incurred                           $2,090,602 $1,831,055
  Less: Spending Authority from Offsetting
  Collections and Recoveries                      2,103,372     1,886,594
Net Obligations                                     (12,770)     (55,539)

Other Resources
  Transfers to the Treasury General Fund
  On-Budget                                         (15,000)     (43,000)




                                                                   61
  Transfers to the Treasury General Fund
  Off-Budget                                     (735,000)   (782,000)
  Imputed Financing from Costs Absorbed
  by Others                                        13,421      11,020
  Other Financing Sources (Seigniorage)           728,638    1,032,284
Net Other Resources Used to Finance Activities     (7,941)    218,304

Total Resources Used to Finance Activities        (20,711)    162,765

Resources Used to Finance Items Not
Part of the Net Cost of Operations:
Change in Budgetary Resources Obligated
for Goods, Services and Benefits Ordered
but Not Yet Provided                               63,435      18,246
Resources that Finance the Acquisition
of Assets or Liquidation of Liabilities            84,754     189,814
Other                                             (77,815)    (43,000)
Total Resources Used to Finance Items
Not Part of the Net Cost of Operations             70,374     165,060
Total Resources Used to Finance the
Net Cost of Operations                            (91,085)     (2,295)

Components Requiring or Generating
Resources in Future Periods
Increase in Exchange Revenue Receivable
from the Public                                        —      (52,159)
Total Components of Net Cost of Operations
that will Require or Generate Resources in
Future Periods                                         —      (52,159)

Components not Requiring or Generating
Resources in the Current Period:
Depreciation and Amortization                      34,292      37,879
Revaluation of Assets                               7,046      (1,437)
Other                                              12,938       2,407
Total Components of Net Revenue from
Operations that will not require or Generate
Resources                                          54,276      38,849
Total Components of Net Revenue from
Operations that will not require or Generate
Resources in the Current Period                    54,276     (13,310)

Net Revenue from Operations                      ($36,809)   ($15,605)




                                                                62
Required Supplementary Information Department of the Treasury
(Unaudited)                               United States Mint
For the Year Ended September 30, 2008 and 2007

Introduction
This section provides the Required Supplemental Information as prescribed by the Office of Management
and Budget (OMB) Circular A-136, “Financial Reporting Requirements.”

Heritage Assets
The United States Mint is steward of a large, unique, and diversified body of heritage assets that are both
collection and non-collection in nature. These items include a variety of rare and semi-precious coin
collections and historical artifacts, and are held at various United States Mint locations. Some of these
items are placed in locked vaults within the United States Mint where access is limited to only special
authorized personnel. Other items are on full display to the public requiring little if any authorization to
view. Items on display are accounted for and controlled for protection and conservation purposes.
The United States Mint has created two categories to account for the large and varied stock of heritage
assets. These categories include coin collections and historical artifacts. The table below summarizes the
Unites States Mint’s collection and non-collection type heritage assets balance as of September 30, 2008.
Overall, the United States Mint heritage assets, both collection and non-collection type, are in good
condition.

Coin Collections                                                   Quantity of Items Held September 30,
                                                                   2008                          2007
Non Precious Metal Coin Collection                                   1                             1
Silver Coin Collection                                               1                             1
Gold And Extremely Rare Coin Collection                              1                             1
Total                                                                3                             3


Historical Artifacts Coin Collections                              Quantity of Items Held September 30,
                                                                   2008                         2007
Furniture Collections (includes antiques)                            2                             2
Equipment Collection                                                 1                             1
Total                                                                3                             3




                                                      63
                               KPMG LLP
                               2001 M Street, NW
                               Washington, DC 20036




            Independent Auditors’ Report on Internal Control Over Financial Reporting


Inspector General
United States Department of the Treasury

Director
United States Mint:

We have audited the balance sheets of the United States Mint as of September 30, 2008 and 2007 and the
related statements of net cost, changes in net position, and combined statements of budgetary resources
(hereinafter referred to as “financial statements”) for the years then ended, and have issued our report
thereon dated December 3, 2008.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements. Those standards and OMB Bulletin
No. 07-04 require that we plan and perform the audits to obtain reasonable assurance about whether the
financial statements are free of material misstatement.

The management of the United States Mint is responsible for establishing and maintaining effective
internal control. In planning and performing our fiscal year 2008 audit, we considered the United States
Mint’s internal control over financial reporting by obtaining an understanding of the design effectiveness
of the United States Mint’s internal controls, determining whether internal controls had been placed in
operation, assessing control risk, and performing tests of controls as a basis for designing our auditing
procedures for the purpose of expressing our opinion on the financial statements. To achieve this purpose,
we did not test all internal controls relevant to operating objectives as broadly defined by the Federal
Managers’ Financial Integrity Act of 1982. The objective of our audit was not to express an opinion on the
effectiveness of the United States Mint’s internal control over financial reporting. Accordingly, we do not
express an opinion on the effectiveness of the United States Mint’s internal control over financial
reporting.

Our consideration of internal control over financial reporting was for the limited purpose described in the
preceding paragraph and would not necessarily identify all deficiencies in the internal control over
financial reporting that might be significant deficiencies or material weaknesses.

A control deficiency exists when the design or operation of a control does not allow management or
employees, in the normal course of performing their assigned functions, to prevent or detect misstatements
on a timely basis. A significant deficiency is a control deficiency, or combination of control deficiencies,
that adversely affects the United States Mint’s ability to initiate, authorize, record, process, or report
financial data reliably in accordance with U.S. generally accepted accounting principles such that there is
more than a remote likelihood that a misstatement of the United States Mint’s financial statements that is

                                                                       64
                                KPMG LLP. KPMG LLP, a U.S. limited liability partnership, is
                                a member of KPMG International, a Swiss cooperative.
more than inconsequential will not be prevented or detected by the United States Mint’s internal control. A
material weakness is a significant deficiency, or combination of significant deficiencies, that results in
more than a remote likelihood that a material misstatement of the financial statements will not be prevented
or detected by the United States Mint’s internal control.

In our fiscal year 2008 audit, we consider the deficiencies, described in Exhibit I, to be significant
deficiencies in internal control over financial reporting. However, we believe that none of the significant
deficiencies described in Exhibit I are material weaknesses. Exhibit II presents the status of prior year
material weakness.

The United States Mint’s responses to the findings identified in our audit are presented in Exhibit III. We
did not audit the United States Mint’s response and, accordingly, we express no opinion on it.

We noted certain additional matters that we have reported to management of the United States Mint in a
separate letter dated December 3, 2008.

This report is intended solely for the information and use of the United States Mint’s management, the
Department of the Treasury’s Office of Inspector General, OMB, the U.S. Government Accountability
Office, and the U.S. Congress and is not intended to be and should not be used by anyone other than these
specified parties.




December 3, 2008




                                                    65
                                                                                                  Exhibit I
                                     THE UNITED STATES MINT
                                         Significant Deficiencies

                                           September 30, 2008


Improvements Needed Over Inventory Tracking

We noted the United States Mint’s (Mint) accounting system is not being updated timely for receipts and
transfers of inventory. Significant variances between inventory counts and inventory records were noted
as a result of:

    1.   Documentation not being received timely to record transactions for both Circulating and
         Numismatic inventory;
    2.   The creation of discreet jobs for the consumption of coil to webbing not being performed
         properly;
    3.   No documentation being received for coils to properly transfer inventory from dock work-in-
         process (WIP) to circulating WIP;
    4.   Condemned and Sweeps inventory amounts were inaccurate due to missing paper work from
         Coining Division;
    5.   Incorrect items being transacted for stamped dollars in Numismatic, because of improper
         documentation; and
    6.   Five 25 cent coils being improperly entered into the system, causing the final inventory
         reconciliation to be inaccurate.

Additionally we noted that one United States Mint facility was improperly receiving raw materials for
pennies directly into work-in-process, without the approval of Headquarters.

OMB Circular A-123, Managements Responsibility for Internal Control, defines management’s
responsibility and provides guidance to Federal managers on improving the accountability and
effectiveness of Federal programs and operations by establishing, assessing, correcting, and reporting on
internal control. In addition the circular states that “transactions should be promptly recorded, properly
classified, and accounted for in order to prepare timely accounts and reliable financial and other reports.”

GAO Standards for Internal Control in the Federal Government holds that transactions should be
properly authorized, documented, and recorded accurately and timely.

Recommendations: We recommend that the United States Mint:

    1. Enforce and follow the inventory procedures related to the recording and tracking of inventory
       movements in the accounting system to ensure the subsidiary ledger agrees to the inventory
       physically located at the facilities.

    2. Enforce and follow the inventory procedures, specifically related to properly receiving and
       classifying inventory between raw materials and work-in-process.

Improvement Needed in Review of Open Obligations

Mint Headquarters did not properly review open obligations during the year to ensure that closed
obligations were being de-obligated timely Specifically we noted:

                                                    66
                                                                                                  Exhibit I
                                     THE UNITED STATES MINT
                                         Significant Deficiencies

                                           September 30, 2008


    1. The population used for the open obligation review is not being reconciled to the general ledger.
    2. The employees performing the reviews do not have updated procedures to follow; therefore, a
       complete review is not performed
    3. Once each division returns the portion of open obligations they were requested to review, there is
       no final reconciliation by Mint Headquarters to ensure all open obligations were reviewed as
       required.
    4. Procedures related to de-obligating of funds were not being performed timely.

OMB Circular A-123, Management’s Responsibility for Internal Control, states that monitoring the
effectiveness of internal control should occur in the normal course of business. In addition, periodic
reviews, reconciliations or comparisons of data should be included as part of the regular assigned duties of
personnel.

Furthermore, internal control best practices require monitoring procedures to be adequately documented.

Recommendations: We recommend that the United States Mint:

    1. Update the standard operating procedures (SOP) to include a reconciliation of open obligations
       population to the general ledger.

    2. Enforce the SOP procedures for de-obligating closed obligations and ensure staff is provided with
       the updated SOP.




                                                    67
                                                                                            Exhibit II

                                  THE UNITED STATES MINT
                               Status of Prior Year Material Weakness

                                        September 30, 2008

                                                                                          Status as of
 Prior Year                                  Prior Year                                   September
 Condition                               Recommendation
                                                                                           30, 2008

Improvement needed in Internal Controls related to Financial Accounting and Reporting

Inventory      Recommendation #1: Develop controls and processes related to the            Partially
               recording and tracking of inventory movements in the financial               Closed
               statement system to ensure the subsidiary ledger agrees to the inventory
               physical located at the facilities.
               Recommendation #2: Establish a policy and procedure for the                  Closed
               accounting treatment of metal by-product located at the United States
               Mint that is not in the subsidiary ledger.




                                                 68
                                                                              Exhibit III




                                   December 3, 2008



KPMG LLP
2001 M Street N.W.
Washington, DC 20036

Ladies and Gentlemen:

We have reviewed the fiscal year 2008 auditors’ report and are in substantial agreement
with the reported observations. The United States Mint recognizes the need for strong
internal controls and is taking corrective actions to address the noted deficiencies. We
have made significant progress toward resolving the reported issues and will continue to
work with KPMG and the Office of Inspector General in identifying the specific actions
that will ensure we have taken appropriate corrective action.


                                     Sincerely,




                                     Patricia M. Greiner
                                     Associate Director/Chief Financial Officer
                                     United States Mint




                                           69
                               KPMG LLP
                               2001 M Street, NW
                               Washington, DC 20036




                  Independent Auditors’ Report on Compliance and Other Matters


Inspector General
United States Department of the Treasury

Director
United States Mint:

We have audited the balance sheets of the United States Mint as of September 30, 2008 and 2007, and the
related statements of net cost, changes in net position, and combined statements of budgetary resources
(hereinafter referred to as “financial statements”) for the years then ended, and have issued our report
thereon dated December 3, 2008.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements. Those standards and OMB Bulletin
No. 07-04 require that we plan and perform the audit to obtain reasonable assurance about whether the
financial statements are free of material misstatement.

The management of the United States Mint is responsible for complying with laws, regulations, and
contracts applicable to the United States Mint. As part of obtaining reasonable assurance about whether the
United States Mint’s financial statements are free of material misstatement, we performed tests of the
United States Mint’s compliance with certain provisions of laws, regulations, and contracts,
noncompliance with which could have a direct and material effect on the determination of the financial
statement amounts, and certain provisions of other laws and regulations specified in OMB Bulletin No. 07-
04, including the provisions referred to in Section 803(a) of the Federal Financial Management
Improvement Act of 1996 (FFMIA). We limited our tests of compliance to the provisions described in the
preceding sentence, and we did not test compliance with all laws, regulations, and contracts applicable to
the United States Mint. However, providing an opinion on compliance with those provisions was not an
objective of our audit, and accordingly, we do not express such an opinion.

The results of our tests of compliance described in the preceding paragraph of this report, exclusive of
those referred to in FFMIA, disclosed no instances of noncompliance or other matters that are required to
be reported herein under Government Auditing Standards or OMB Bulletin No. 07-04.

The results of our tests of FFMIA disclosed no instances in which the United States Mint’s financial
management systems did not substantially comply with (1) Federal financial management systems
requirements, (2) applicable Federal accounting standards, and (3) the United States Government Standard
General Ledger at the transaction level.




                                                                       70
                                KPMG LLP. KPMG LLP, a U.S. limited liability partnership, is
                                a member of KPMG International, a Swiss cooperative.
This report is intended solely for the information and use of the United States Mint’s management, the
Department of the Treasury’s Office of Inspector General, OMB, the U.S. Government Accountability
Office, and the U.S. Congress and is not intended to be and should not be used by anyone other than these
specified parties.




December 3, 2008




                                                   71
